      IG’S
Semiannual Report
   to Congress




     March 2004
                                 Office of Inspector General
                                     Organization Chart

                                                                       Inspector
            Office of                                                   General
                                                                                                                              Office of
         Compliance and
                                                                      Deputy                                                  Counsel
         Administration
                                                                 Inspector General

           Office of
                                                                                                                          Office of
       Inspections and
                                                                                                                     Systems Evaluation
     Program Evaluations



                            Office of                                                                           Office of
                             Audits                                                                          Investigations


                     Financial Statements
 Audit                                                      Regional             Investigative                 Investigative               Investigative
                       & Accountability
Services                                                     Audits                Services                    Field Offices              Resident Offices
                           Audits




                                               OIG Points of Contact
 Inspector General .................................       (202) 482-4661    Office of Counsel ................................... (202) 482-5992
 Legislative and                                                             Office of Inspections and Program Eval. (202) 482-2754
 Intergovernmental Affairs ......................          (202) 482-3052    Office of Investigations .......................... (202) 482-0934
 Office of Audits ......................................   (202) 482-1934    Office of Systems Evaluations .............. (202) 482-6186
 Office of Compliance and Admin. ..........                (202) 482-0231    Media Inquiries ...................................... (202) 482-5992



 REQUESTS FOR REPORTS                                                        OIG HOTLINE
 Telephone ............................................. (202) 482-5348      Telephone ............................................. (202) 482-2495
 TDD Number ......................................... (202) 482-4948          .......................................................... or (800) 424-5197
 Internet E-Mail ............................... reports@oig.doc.gov         Internet E-Mail ................................. hotline@oig.doc.go

                                                              OIG Internet Home Page

                                                 http://www.oig.doc.gov
                                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                                       The Inspector General
                                                                       Washington, D.C. 20230




June 2004

The Honorable Donald L. Evans
Secretary of Commerce
Washington, DC 20230

Dear Mr. Secretary:

I am pleased to provide you with the Inspector General’s Semiannual Report to Congress for the first half of fiscal year 2004.
Section 5 of the Inspector General Act requires that you transmit this report, with any comments you may wish to add, to the
appropriate committees within 30 days of your receiving it.

You and the Department are to be congratulated on the outcome of the FY 2003 consolidated financial statements audit, which
is detailed in this report. Once again, the Department received a clean opinion and made strides in resolving some of the
weaknesses noted in prior-year audits. Overall financial management at Commerce has vastly improved over the years, and
with it, the efficiency of the Department. It is essential that your officials continue to give attention to this area as Commerce
moves to eliminate remaining identified weaknesses and avert others as they emerge.

Likewise, I note that the Department’s standing in OMB’s annual program evaluations improved in FY 2003, as 15 of the 19
programs reviewed were judged “adequate to effective.” While this represents significant progress, further improvements are
required in numerous areas, as indicated by some of the work we report here. We continue, for example, to find performance
deficiencies in a wide range of departmental programs and bureaus of a nature that is often only detectable through in-depth
probes such as the ones we conduct. The emphasis by the President, OMB, and Congress on improved government account-
ability underscores our resolve to enhance transparency within Commerce programs and operations, and to promote their
improved efficiency and effectiveness. Progress and success in these endeavors require equally deep resolve from Department
officials and staff at all levels.

I am confident that such resolve exists, and my staff and I look forward to assisting the Department in what must be a continu-
ing pursuit of excellence.

Sincerely,




Johnnie E. Frazier
CONTENTS
IG’s Message to Congress ...................................................................................................................................................................... 1


Major Challenges for the Department .................................................................................................................................................. 3
      Strengthen Department-Wide Information Security ......................................................................................................................... 3
      Effectively Manage Departmental and Bureau Acquisition Processes ............................................................................................. 4
      Successfully Operate USPTO as a Performance-Based Organization .............................................................................................. 6
      Control the Cost and Improve the Accuracy of Census 2010 ........................................................................................................... 7
      Increase the Effectiveness of Marine Resource Management ........................................................................................................... 8
      Promote Fair Competition in International Trade ............................................................................................................................. 9
      Enhance Export Controls for Dual-Use Commodities .................................................................................................................... 10
      Enhance Emergency Preparedness, Safety, and Security of Commerce Facilities and Personnel .................................................. 11
      Strengthen Financial Management Controls and Systems .............................................................................................................. 12
      Continue to Improve the Department’s Strategic Planning and Performance Measurement in Accordance with GPRA .............. 12


Department of Commerce Organization Chart ................................................................................................................................. 13


Agency Overviews
      Bureau of Industry and Security ...................................................................................................................................................... 14
      Economic Development Administration ......................................................................................................................................... 19
      Economics and Statistics Administration ........................................................................................................................................ 22
      International Trade Administration ................................................................................................................................................. 24
      Minority Business Development Agency ........................................................................................................................................ 27
      National Oceanic and Atmospheric Administration ........................................................................................................................ 29
      Technology Administration ............................................................................................................................................................. 35
      United States Patent and Trademark Office .................................................................................................................................... 38
      Department-Wide Management ...................................................................................................................................................... 39


Office of Inspector General ................................................................................................................................................................. 42
      Highlights of OIG Investigations .................................................................................................................................................... 42
      Tables and Statistics ........................................................................................................................................................................ 45
      Reporting Requirements .................................................................................................................................................................. 55


Acronyms ............................................................................................................................................................................................... 57


Types of OIG Work Products .............................................................................................................................................................. 59




March 2004/Semiannual Report to Congress
IG’s Message to Congress


A       s federal agencies have moved to implement performance-
           based budgeting, the demand for increased government
           accountability that began in 1990 with passage of the
Chief Financial Officers (CFO) Act has come full circle. This leg-
islation, along with the Government Performance and Results Act
                                                                          dent and confirmation by the Senate revealed a long-standing dis-
                                                                          regard for these legislative requirements dating back at least 2
                                                                          decades. We also found that NOAA Corps accepted transfers of
                                                                          officers from other uniformed services without seeking the re-
                                                                          quired concurrence of the Secretary of Commerce. We attributed
of 1993 and a string of likeminded laws that have followed, estab-        this noncompliance with statutory requirements to a long-stand-
lished standards for performance against which Congress, OMB,             ing lack of internal controls, guidance, and oversight for the con-
and others could better assess an agency’s management, finan-             firmation process, along with the view generally held by the Corps
cial, and operational soundness. Budget and performance integra-          that the process was pro forma. (See page 29.)
tion has taken the intent of these laws a step further by requiring
agencies to use program outcomes as justification for their re-           Performance Measurement. As has been our practice in recent
quests for and use of federal funds.                                      reporting periods, we reviewed the adequacy of performance mea-
                                                                          surement and reporting at select departmental units—this time
Through the years, offices of inspector general have responded to         looking at the Census Bureau. Our audit confirmed a pattern noted
these initiatives with a broad range of audits, inspections, and evalu-   in similar reviews of other units: some of the measures, targets,
ations aimed at assessing their respective agency’s compliance with       and discussions presented in the Department’s Performance &
and performance under them, and reporting their findings to Con-          Accountability Report do not accurately or precisely convey the
gress to inform its decision making. At the Department of Com-            real basis for the data, and the data can therefore not be trusted as
merce, our work has noted steady improvement in management                a reliable tool for congressional decision making. (See page 22.)
and financial accountability as well as in program and operational        Our in-process audit of National Marine Fisheries Service mea-
effectiveness, along with deficiencies whose resolution requires          sures is uncovering many of these same problems as well.
the Department’s dedicated attention. This semiannual report de-
tails some of the improvements and weaknesses identified in our           Similarly, evaluations of three export assistance centers operated
most recent work, our recommendations for needed enhancements,            by the U.S. Commercial Service found that each center—though
and the Department’s actions in response. Among the areas we              generally well run—had overstated its export success data. Com-
assessed during this reporting period are the following:                  mercial Service factors this data into the performance it reports
                                                                          under GPRA. (See page 24.)
National Security. Our annual export control review pursuant to
the National Defense Authorization Act looked at whether the Bu-          Financial Soundness and Accountability. Audits of the Depart-
reau of Industry and Security’s (BIS’) implementation of deemed           ment’s FY 2003 consolidated financial statements and of USPTO
export control regulations prevents the transfer of controlled U.S.       and NTIS gave unqualified opinions to all. The latter two agen-
technologies and technical information to foreign national re-            cies fully complied with laws and regulations, while the Depart-
searchers or visitors from countries and entities of concern, and         ment substantially complied with the Federal Financial Manage-
whether U.S. industry, academic institutions, and Commerce re-            ment Improvement Act (FFMIA) but remains noncompliant with
search agencies are complying with the regulations. We identified         OMB financial requirements. Audits of IT controls identified new
weaknesses and potential loopholes in the regulations, confusion          weaknesses at NTIS and USPTO and some unresolved from last
over when and to whom they apply, consequent opportunities for            year at both units as well as at the Department. (See pages 36, 38,
the transfer of prohibited materials, and a need for increased BIS        and 39.)
outreach to industry and research laboratories. (See page 14.)
                                                                          Our audits of EDA and NIST financial assistance recipients
Noncompliance with Statutory and Departmental Requirements.               identified $6,906,613 in questioned costs and recommended that
Our review of revelations that NOAA Corps was appointing and              $6,603,432 be put to better use. (See pages 19 and 35, respec-
promoting officers without obtaining nominations from the Presi-          tively.)




March 2004/Semiannual Report to Congress                                                                                                    1
IG’s Message to Congress




REVISITING OUR AGENDA                                                 specific issue—the upcoming decennial, departmental procure-
                                                                      ment processes, USPTO operations, and trade, to name a few—
With the fast approach of fiscal year 2005, we are in the process     and plan to meet with senior Commerce officials as well as con-
of developing a work plan to guide us through the next 2 years.       gressional members and staff in the coming months. I am pleased
Some of the areas that will demand our increased scrutiny are         with the process that is emerging thus far: it promises to produce
obvious—preparations for the 2010 decennial census will be a          a plan that is forward looking and thorough, and above all, well
major focus throughout the decade. And as Commerce’s role in          suited to assessing the Department’s performance in all key areas,
advancing national, departmental, and personnel security will         offering recommendations for improvement, and informing Con-
likely grow more pressing and complex, its activities in these ar-    gress of the results.
eas will be priorities for us as well.
                                                                      I look forward to sharing our completed plan with you.
In an effort to fine-tune our broad agenda into specific work prod-
ucts, we are conducting a series of summits, each focusing on a




2                                                                                             March 2004/Semiannual Report to Congress
MAJOR CHALLENGES
FOR THE DEPARTMENT
The Office of Inspector General, in assessing its work at the close       As we reported in our last semiannual (see September 2003 Semi-
of each semiannual period, develops the Top 10 Management                 annual Report, page 37), the Department’s chief information of-
Challenges the Department faces. Each challenge meets one or              ficer (CIO), with the support of the Deputy Secretary, has worked
more of the following criteria: (1) it is important to the                hard to improve information security Department-wide, and note-
Department’s mission or the nation’s well-being, (2) it is com-           worthy progress has been made. Considerable challenges persist,
plex, (3) it involves sizable expenditures, or (4) it requires signifi-   however, in ensuring adequate security on the hundreds of Com-
cant management improvements. Because of the diverse nature of            merce systems. This effort requires (1) assessing risk and deter-
Commerce activities, many of these criteria cut across bureau and         mining appropriate security controls, (2) testing and evaluating
program lines. We believe that by addressing these challenges the         these controls, (3) certifying and accrediting systems,1 and (4)
Department can enhance program efficiency and effectiveness;              ensuring that personnel with specialized information security re-
eliminate serious operational problems; decrease fraud, waste, and        sponsibilities receive the necessary training.
abuse; and achieve substantial savings.

                                                                                           MAJOR CHALLENGES
                                                                                          FOR THE DEPARTMENT
CHALLENGE 1                                                                   1. Strengthen Department-wide information security.
                                                                              2. Effectively manage departmental and bureau
STRENGTHEN DEPARTMENT-WIDE                                                       acquisition processes.
INFORMATION SECURITY
                                                                              3. Successfully operate USPTO as a performance-
                                                                                 based organization.
Many of Commerce’s information technology systems and the
data they contain have national significance: the Bureau of In-               4. Control the cost and improve the accuracy of
dustry and Security’s (BIS’) export license data helps control the               Census 2010.
release of dual-use commodities to countries and entities of con-
                                                                              5. Increase the effectiveness of marine resource
cern; the National Oceanic and Atmospheric Administration’s
                                                                                 management.
(NOAA’s) satellite, radar, and weather forecasting data and sys-
tems provide information used to protect lives and property; the              6. Promote fair competition in international trade.
Economics and Statistics Administration’s (ESA’s) economic in-                7. Enhance export controls for dual-use commodi-
dicators have policymaking implications that can affect the move-                ties.
ment of global commodity and financial markets; and the U.S.
Patent and Trademark Office’s (USPTO’s) patent and trademark                  8. Enhance emergency preparedness, safety, and
information is essential to administering patent and trademark                   security of Commerce facilities and personnel.
law, promoting industrial and technical progress, and strength-               9. Strengthen financial management controls and
ening the national economy. Loss of or serious damage to any of                  systems.
the critical systems containing this data could have devastating
                                                                             10. Continue to improve the Department’s strategic
impacts. Therefore, identifying weaknesses in these systems and
                                                                                 planning and performance measurement in
recommending solutions is a continuing top priority for the Of-
                                                                                 accordance with GPRA.
fice of Inspector General.

The Federal Information Security Management Act (FISMA),
signed into law on December 17, 2002, provides a comprehensive            1
                                                                            Certification is the formal testing and evaluation of the security safe-
framework for ensuring that information resources supporting fed-         guards on a computer system to determine whether they meet applicable
eral operations and assets employ effective security controls.            requirements and specifications. Accreditation is the formal authoriza-
FISMA requires OIGs to perform independent security evalua-               tion by management for system operation, including an explicit accep-
tions of their agencies annually.                                         tance of risk.




March 2004/Semiannual Report to Congress                                                                                                         3
Major Challenges for the Department




As we advised in our FISMA reports, the Department has reported            for safeguarding information resources. We are currently prepar-
information security as a Federal Management Financial Integ-              ing a report that provides additional discussion of these findings
rity Act (FMFIA) material weakness in its Performance & Ac-                as well as recommendations to further ensure that information
countability Report for the past 3 fiscal years. Similarly, USPTO,         and information systems are adequately secure when contractor-
which submits its Performance & Accountability Report separately,          provided services are used. This report notes that the contract
reported information security as an FMFIA material weakness the            clauses were issued in November 2003. We are recommending
past 2 fiscal years. The Department, including USPTO, had set a            that the Department take steps to ensure that its service contracts
goal of certifying and accrediting all systems that are part of the        contain the new security clauses and that appropriate contract
critical infrastructure or mission critical by the end of FY 2003.         oversight occurs.
Although 97 percent of the Department’s systems were reported
as certified and accredited by that milestone, our FY 2003 FISMA
evaluation revealed that many systems reported as certified and
accredited contained significant deficiencies in their risk assess-        CHALLENGE 2
ments, security plans, and contingency plans—i.e., certification
and accreditation materials. Most also lacked evidence that secu-
                                                                           EFFECTIVELY MANAGE
rity controls had been tested. Using a disciplined certification and
accreditation process, USPTO planned to have its mission-criti-            DEPARTMENTAL AND BUREAU
cal systems and its classified system certified and accredited by          ACQUISITION PROCESSES
the end of FY 2003, but was not able to accomplish this goal.
USPTO reports that all of these systems were certified and ac-             Federal acquisition legislation in the 1990s mandated sweeping
credited by March 29, 2004. The Department is now working to               changes in the way federal agencies buy goods and services. The
complete all system certifications and accreditations and improve          intent was to reduce the time and money spent on purchasing, and
their quality in FY 2004.                                                  improve the efficiency of the process. The latest legislative effort
                                                                           to streamline acquisition is the Services Acquisition Reform Act
Our ongoing FISMA evaluation for this fiscal year includes re-             of 2003, whose provisions further push for performance-based
views of the Census Bureau’s information security program and              service contracting: the act provides that service contracts under
the Department’s computer incident response capability, as well            $25,000 may be treated as “commercial” if certain performance-
as assessments of the quality and content of system certifications         based criteria are met and thereby be eligible for simplified acqui-
and accreditations and plans of action and milestones (POA&Ms).2           sition procedures. As the Department’s reliance on contractor-pro-
                                                                           vided services increases, so does the challenge to understand and
CONTRACT SECURITY WEAKNESSES                                               effectively manage the new acquisition processes these initiatives
                                                                           fostered. At the same time, Commerce must be careful to ensure
We noted in our last semiannual (see September 2003 Semian-                that taxpayer dollars are wisely spent and laws and regulations
nual Report, page 37) that inadequate security provisions in Com-          followed when using streamlined procedures.
merce IT service contracts also place systems at risk. The Depart-
ment continued to rely heavily on contractors to provide IT ser-           This balance is best maintained by adhering to basic acquisition
vices in FY 2003, spending 65 percent of its IT contract dollars           principles: careful planning, promotion of competition, prudent
on this area. Our FY 2003 FISMA evaluation found that while                review of competitive bids, adept contract negotiations, well-struc-
progress had been made in incorporating security provisions into           tured contracts, and effective contract management and oversight.
recent IT service contracts,3 provisions for controlling contractor        These are essential to ensuring that sound contracting decisions
access to Department systems and networks were generally ab-               are made and contracts successfully executed. Problems we have
sent, and there was little evidence of contract oversight or of coor-      identified with service contracting in the past include failure to
dination among contracting, technical, and information security            use performance-based task orders where they would be benefi-
personnel in developing appropriate contract security. We sum-             cial; inadequate training in the use of performance-based service
marized these findings in our September 2003 FISMA report,                 contracting; insufficient planning for contract administration and
noting that the Department was finalizing standard contract clauses        monitoring; and failure to ensure that adequate security provi-
                                                                           sions are included and enforced in IT service contracts.
2
  OMB guidance directs agencies to develop POA&Ms to correct pro-
                                                                           We are currently monitoring certain major acquisitions related to
gram- and system-level IT security weaknesses and track each deficiency
                                                                           the 2010 decennial census and intend to review the acquisition
until it is corrected.
                                                                           management process, from planning through contract closeout, at
3
 The term “contract” includes task orders and delivery orders issued un-   selected bureaus. The use of performance-based service contract-
der multiple award contracts and government-wide agency contracts          ing, where applicable, will be a key focus of our acquisition re-
(GWACs).                                                                   views.



4                                                                                                   March 2004/Semiannual Report to Congress
                                                                                                      Major Challenges for the Department




DEPARTMENTAL INITIATIVES                                               an incomplete explanation in the solicitation document denied
                                                                       offerors full information about the rules governing the procure-
The Department agrees that acquisition planning and management         ment. In response to our review, NIST officials agreed to improve
need greater emphasis, and notes that its Office of Acquisition        their internal quality assurance program for procurement actions,
Management (OAM) is pursuing improvements. Among other                 develop supplemental policy and guidance, and provide training
things, OAM has established a review board to oversee all major        to their acquisition workforce.
acquisitions. Additionally, it is (1) evaluating Commerce’s del-
egation and warrant program, with the goal of realigning con-
                                                                       MAJOR CONSTRUCTION AND
tracting authorities to increase overall effectiveness and account-
                                                                       RENOVATION PROJECTS
ability; (2) revising the certification program for contracting
officer’s technical representatives (COTRs) to require expanded
                                                                       Contracts for large, costly, and complex capital improvement and
competencies and knowledge and to improve accountability, and
                                                                       construction projects carry numerous inherent risks. This is an
changing the name of this function to “contracting officer’s repre-
                                                                       area of particular vulnerability for the Department, given the many
sentative” to reflect its broader responsibilities; and (3) empha-
                                                                       construction and/or renovation projects it has planned or under
sizing the need for increased use of performance-based service
                                                                       way for Commerce facilities. Departmental leadership and OIG
contracting. It is assessing the effectiveness of these various ini-
                                                                       oversight are needed to maximize Commerce’s return on its in-
tiatives as well.
                                                                       vestment in these projects. Detecting and addressing potential prob-
                                                                       lems during the developmental stages rather than after a project is
Finally, in response to increased scrutiny from our office, Con-
                                                                       begun or completed saves time and money. For this reason, we
gress, and OMB, and in light of Commerce’s increasing use of
                                                                       continue to monitor the progress of the Department’s current and
purchase cards, OAM is implementing a purchase card improve-
                                                                       planned construction projects.
ment plan that includes mandatory refresher training for all
cardholders and approving officials. Under the auspices of the         At present we are reviewing USPTO’s progress in completing,
Chief Financial Officer and Assistant Secretary for Administra-        furnishing, and occupying its new headquarters complex in north-
tion, an intradepartmental, cross-functional team was formed to        ern Virginia (see Challenge 3, page 6). Over time, we will also
evaluate options to further strengthen the Department’s purchase,
travel, and fleet card programs.

These actions address significant problems that we have identi-
fied in our acquisition-related reviews; we will determine their
effectiveness as we conduct our acquisition review program.

NOAA/NWS Contract Modification. In this semiannual period,
we continued monitoring NOAA’s actions to correct the systemic
deficiencies identified in our review of a major modification to a
NOAA/National Weather Service (NWS) contract for a transition
power source (TPS) for the NEXRAD weather radar. In our last
semiannual, we reported that NOAA’s Acquisition and Grants
Office and NWS executed the modification without adequate ne-
gotiation or appropriate review and oversight of the contract, its
management, or technical issues, and that NWS paid for defec-
tive equipment. These deficiencies resulted in an estimated in-
crease in contract costs of $4.5 million and purchase of a product
that may not have been the best choice for NEXRAD. (See Sep-
tember 2003 Semiannual Report, page 25.)

NIST Acquisition Management. We recently began a review of
NIST’s acquisition management process. As we reported in our
last semiannual (see September 2003 Semiannual Report, page
32), our review of a NIST contract using the simplified acquisi-       Artist’s rendering of the new Census headquarters complex in
tion procedures test program for soliciting and evaluating com-        Suitland, Maryland, estimated to cost $331 million and be ready
mercial items revealed that an error in citing the relevant procure-   for occupancy in 2008—at the height of the bureau’s preparation
ment law caused some confusion and, if applied, could have re-         for Census 2010.
sulted in unfair penalties being assessed to certain offerors. Also,   Source: Census Bureau



March 2004/Semiannual Report to Congress                                                                                                5
Major Challenges for the Department




assess several of the Department’s other major4 renovation and            In June 2002, USPTO issued its 21st Century Strategic Plan. The
construction projects, which include the following:                       5-year plan was intended to help the agency overcome the chal-
    ■   NOAA. According to NOAA, 21 projects are currently                lenges accompanying its transition to performance-based
        scheduled or in process including construction of a               operations; successfully develop necessary personnel policies;
        Pacific Region Center in Hawaii, projected to cost                establish procurement and administrative policies as well as
        $210-$230 million; a fisheries research facility in Juneau,       performance-oriented processes and standards for evaluating cost-
        Alaska; and a Center for Weather and Climate Prediction           effectiveness; and, simultaneously, meet its performance goals
        in College Park, Maryland.                                        under the Government Performance and Results Act (GPRA) and
                                                                          the timeliness goals of the American Inventors Protection Act.
    ■   NIST. The bureau continues its multimillion-dollar
        program to upgrade existing laboratories in Gaithersburg,         In February 2003, USPTO revised this plan. According to the
        Maryland, and Boulder, Colorado: it has begun occupy-             agency, it is now more aggressive and far-reaching and provides a
        ing its new Advanced Measurement Laboratory in                    roadmap for major changes in patent and trademark processes.
        Gaithersburg and constructing a central utilities plant in        These include steps to (1) improve and maintain patent and trade-
        Boulder.                                                          mark quality, (2) move to a paperless environment and promote e-
    ■   Census. Two buildings will be constructed at the                  government, (3) enhance employee development, and (4) explore
        bureau’s Suitland, Maryland, headquarters. Construction           competitive sourcing. The plan also calls for the agency to work
        drawings are nearly completed.                                    with international intellectual property offices to create a global
    ■   Commerce Headquarters (Herbert C. Hoover Build-                   framework for enforcing intellectual property rights.
        ing). The Department is planning the modernization of
        its headquarters in Washington, D.C., and has established         Our office is currently reviewing aspects of USPTO’s Office of
        a Renovation Program Office to oversee and monitor this           Human Resources in response to complaints of noncompliance
        multiyear, multiphase project through completion.                 with merit system principles and a subsequent request for review
                                                                          from the agency’s chief financial officer/chief administrative of-
                                                                          ficer. In addition, we are auditing selected aspects of USPTO’s
                                                                          trademark review process and evaluating certain efforts to increase
                                                                          productivity and reduce the time it takes to process trademark ap-
CHALLENGE 3                                                               plications. The review covers fiscal years 1999 through 2003. Simi-
                                                                          larly, we are evaluating patent examiner production goals, awards,
SUCCESSFULLY OPERATE THE U.S.                                             and performance appraisal plans to determine their effect on pro-
PATENT AND TRADEMARK OFFICE                                               duction.
AS A PERFORMANCE-BASED
                                                                          We are also reviewing progress on construction of the agency’s
ORGANIZATION
                                                                          new, state-of-the-art headquarters complex in Alexandria, Virginia,
                                                                          and its plans for relocating to these facilities. This project is one
USPTO’s operation as a performance-based organization contin-
                                                                          of the federal government’s largest real estate ventures. When
ues to warrant special attention. According to USPTO, the effi-
                                                                          completed in 2005, the five-building complex will bring together
ciency with which it issues patents has a huge impact on the pace
                                                                          the majority of USPTO employees and contractors, who are cur-
of technological advancement worldwide. The prompt registra-
                                                                          rently scattered among 18 buildings in Crystal City, Virginia.
tion of trademarks protects commercial investment, informs con-
                                                                          USPTO has occupied two of the new buildings earlier than antici-
sumer choices, and promotes the availability of new goods and
                                                                          pated and is working with the General Services Administration to
services.
                                                                          ensure the project stays on schedule.
Though USPTO has assumed responsibility for certain operational
                                                                          Our current focus is USPTO’s management of the project—we
functions that were once controlled or monitored at the depart-
                                                                          are looking at the agency’s handling of issues we identified dur-
mental level, it is essential that the bureau effectively use its ex-
                                                                          ing the project’s planning and design phases, such as relocation
panded authority over budget allocations and expenditures, per-
                                                                          strategies and actual versus estimated costs and completion sched-
sonnel decisions and processes, procurement, and information
                                                                          ules. Accomplishing the relocation with minimal disruptions to
technology operations to process patent and trademarks in a high-
                                                                          operations is critical to minimizing adverse impacts on costs,
quality and timely manner.
                                                                          employees, and services to patent and trademark applicants and
                                                                          the public.
4
  According to the U.S. Department of Commerce’s Office of Real Estate
Policy and Major Programs, “major” projects are those costing $2.3 mil-
lion or more.



6                                                                                                   March 2004/Semiannual Report to Congress
                                                                                                    Major Challenges for the Department




CHALLENGE 4                                                           between $10 billion and $12 billion. (Note: Dollar amounts are
                                                                      not adjusted for inflation.)

CONTROL THE COST AND                                                  Much has changed in the methods and technologies used for
IMPROVE THE ACCURACY OF                                               decennial census taking over the past 3 decades. And during that
CENSUS 2010                                                           time, the nation’s population has increased and diversified dra-
                                                                      matically. But the primary weaknesses we have noted in moni-
Few Commerce activities have more ambitious goals, higher costs,      toring the 1980, 1990, and 2000 decennials have remained the
or more intensive resource requirements than the constitutionally     same and are at least partially responsible for the ballooning
mandated decennial census, and with each decade, this undertak-       costs: insufficient planning and lack of upfront funding for an
ing becomes more costly, complex, and challenging. Costs of $1        operation that by its very nature requires long-term vision and
billion in 1980, for instance, rose to $2.6 billion in 1990, and to   development, as well as continued testing at key points along
$6.5 billion in 2000. For 2010, Census estimates the cost will be     the way.




                                        OIG RECOMMENDATIONS FOR
                                     IMPROVING THE DECENNIAL CENSUS
    1. Reach early consensus on the 2010 design to facilitate effective planning and obtain sufficient fund-
       ing. Delays in finalizing the Census 2000 design and obtaining needed funding left insufficient planning,
       development, and testing time for many key components.
    2. Produce accurate, complete address lists and maps. The bureau’s master address file (MAF) and associ-
       ated mapping system (Topologically Integrated Geographic Encoding and Referencing, or TIGER) contained a
       higher-than-acceptable level of unreliability, which meant too many forms and too many enumerators could not
       reach the intended households.
    3. Conduct a carefully targeted and aggressive public awareness campaign. The bureau’s efforts to in-
       crease public awareness of and participation in Census 2000 were successful, enabling the bureau to achieve
       a response rate of 67 percent—6 percentage points beyond the projected rate of 61 percent. Census needs to
       further refine its public outreach program to achieve even higher rates in 2010.
    4. Strengthen quality control of nonresponse follow-up. Instances of falsified and questionable data in
       Census 2000 required costly reenumeration and undermined confidence in the overall census results.
    5. Implement clear policies and guidance for managing temporary staff. The logistics of hiring, training, and
       supervising nearly 1 million temporary workers require strong management policies and procedures.
    6. Determine whether sampling has a role beyond measuring coverage. Sampling has been a contentious
       issue in the past two decennials, and initial plans to use it to improve coverage were ultimately overruled.
    7. Implement rigorous system and software development processes and effective information security
       measures. The bureau’s approach to systems and software development for Census 2000 provided inadequate
       controls, insufficient testing, and poor or no documentation, all of which led to inefficiency and disruptive errors.
    8. Upgrade and maintain contracting and program management expertise. The bureau lacked adequate in-
       house management skills to oversee decennial contracts and contractor-operated programs.
    9. Generate timely and accurate management and operational information. The bureau lacked procedures
       for evaluating operations and thus failed to identify improprieties in a timely manner. Nor did it have expedi-
       tious methods for collecting and disseminating information to stakeholders.
  10. Mitigate potential disruptions and distractions to the work environment and workforce. The bureau
      must have plans to counter the potentially negative impacts of two major events: the possible retirement of
      roughly half of the bureau’s decennial staff during this decade, and the anticipated move to new facilities in
      2008—the year of the dress rehearsal for Census 2010.
  Source: Improving Our Measure of America: What Census 2000 Can Teach Us in Planning for 2010. U.S. Department of
  Commerce Office of Inspector General. Report No. OIG-14431, Spring 2002.




March 2004/Semiannual Report to Congress                                                                                            7
Major Challenges for the Department




                                                                        lack of a plan for accelerating its software improvement process
        CENSUS 2010 REVIEW AGENDA                                       may delay completion of the new system, preventing it from be-
                                                                        ing thoroughly tested before the dress rehearsal in 2008. The suc-
    In addition to work already completed or under way,                 cessful redesign of this system is crucial to improving Census
    OIG plans a series of targeted reviews over the com-                2010 operations, and it must be ready to support the dress re-
    ing months and years on key aspects of the following                hearsal. We are closely monitoring this and other aspects of sys-
    areas:                                                              tems and software acquisition and development, as well as the
       ■   The plan for the 2010 census—its complete-                   bureau’s actions to ameliorate any problems we identify.
           ness, as well as coordination and integration
           of its elements.                                             We are also focused on the bureau’s 2004 testing of new approaches
       ■   Systems and software design, acquisition,                    to staffing census operations and improving data quality and cover-
           development, testing, and security.                          age. Specifically, we will evaluate (1) enumerator hiring, training,
                                                                        and quality control processes; (2) new methods for improving cov-
       ■   Corrections to address and map information.                  erage of population and housing, including procedures to minimize
       ■   Field tests planned for 2004 and 2006.                       address duplication; (3) the effectiveness of improved definitions
       ■   Conduct of the American Community Survey.                    and methods for distinguishing between group quarters and hous-
                                                                        ing units; (4) the impact of handheld computers and associated sys-
       ■   Approach to measuring data quality.                          tems on enumerator performance; and (5) the efficiency and effec-
       ■   Conduct of the 2008 dress rehearsal.                         tiveness of support functions at 2004 local census office test sites.
       ■   Impact of construction and occupancy of
           Census’ new headquarters on decennial
           scheduling.
       ■   Implementation of decennial operations                       CHALLENGE 5
           beginning in 2009.
                                                                        INCREASE THE EFFECTIVENESS OF
                                                                        MARINE RESOURCE
Our work on the 2010 decennial began when we issued Improv-             MANAGEMENT
ing Our Measure of America: What Census 2000 Can Teach Us in
Planning for 2010. Using our recommendations from that report,          The National Marine Fisheries Service (NMFS) must balance two
we have established a comprehensive agenda for monitoring a             competing interests: (1) promoting commercial and recreational
broad range of critical decennial activities from their planning        fishing as vital elements of our national economy and (2) preserv-
through execution. Our goal, as always, is to support and enhance       ing populations of fish and other marine life. Eight regional fish-
the bureau’s readiness by identifying problems early, offering so-      ery management councils, along with NMFS, are responsible for
lutions, and informing the key decision-makers—departmental             developing plans for governing domestic fisheries in federal wa-
officials, Congress, and the administration.                            ters. Their combined goal is to prevent overfishing, rebuild over-
                                                                        fished stocks, and protect, restore, and promote the long-term
The Census Bureau has taken numerous steps toward improving             health and stability of U.S. fisheries.
2010 operations and controlling costs. In September 2002 it adopted
a reengineered framework for conducting the decennial: an Ameri-        Developing conservation and management measures requires col-
can Community Survey to collect and tabulate long-form data             lecting, analyzing, and reporting demographic information about
throughout the decade; an enhanced address list and geographic          fish populations via stock assessments. These reports are a key
information database; and a program of early planning, develop-         element of the fishery management process; they are used to de-
ment, and testing for a short-form-only census. The three-pronged       termine whether additional regulations are necessary to rebuild
strategy is aggressive and intended to capitalize on the latest tech-   fish stocks or whether greater fishing opportunities can be allowed.
nology, such as handheld computers for nonresponse follow-up data       Because of their potential impact on commercial and recreational
collection, which will incorporate a global positioning system to       fishing, these assessments are often controversial, and the meth-
register the correct geographic location of households. In addition,    ods used to create the estimates typically undergo intense scru-
the Department is seeking an increased level of upfront funding.        tiny by fishers and conservation groups.

We have assessed Census’s progress in modernizing its MAF/TI-           Following on our recent assessments of data collection processes
GER processing system thus far (see September 2003 Semian-              and equipment used by an NMFS science center to survey New
nual Report, page 19), and are concerned that the bureau’s late         England groundfish (see September 2003 Semiannual Report, page
start in establishing a strong project management structure and its     30) and enforcement of fishing regulations by NMFS’ Office for



8                                                                                                 March 2004/Semiannual Report to Congress
                                                                                                       Major Challenges for the Department




Law Enforcement (see March 2003 Semiannual Report, page 25),           with the Office of the U.S. Trade Representative, the Departments
we reviewed the agency’s observer program. Observers deployed          of State and Agriculture, and numerous other federal agencies to
on U.S. commercial fishing vessels collect catch statistics, monitor   monitor and enforce trade agreements. The number and complex-
bycatch and protected species interactions, and perform biological     ity of those agreements have increased substantially in recent years,
sampling to obtain information that NMFS, industry, and academic       and the Secretary of Commerce has made monitoring and enforc-
researchers use to supplement their own work and to aid in the man-    ing trade agreements a top priority for ITA and the Department as
agement of living resources. We reviewed seven programs to deter-      a whole. Over the years, Commerce has received additional fund-
mine how NMFS ensures data quality, and whether the data is meet-      ing for trade compliance activities, such as placing compliance
ing research and fishery management needs. Although we found a         officers overseas in several key markets. Our work has shown that
number of best practices that may lend themselves to replication       the increased funding enabled ITA to attract needed staff for its
across all observer programs, we noted several problematic issues:     Market Access and Compliance unit without having to request
procedures for choosing observers’ vessel assignments were improp-     special hiring authority or offer recruitment incentives (see March
erly designed and/or implemented in ways that could potentially        2003 Semiannual Report, page 20).
introduce bias; retaining qualified observer staff is difficult; and
NMFS did not adequately monitor the performance of the programs        Commerce has numerous mechanisms to monitor and help en-
or of contractors hired to provide observers. We made recommen-        force U.S. trade agreements and review trade complaints. When
dations to address each of these issues (see page 30), and also sug-   warranted, its Trade Compliance Center forms teams to follow up
gested that—to foster better industry cooperation with the observer    on complaints and bring them to satisfactory conclusion. In addi-
program—NMFS’ National Observer Program office and the re-             tion, ITA’s overseas offices, operated by the U.S. and Foreign
gional science centers do more outreach to the fishing industry.       Commercial Service (US&FCS), as well as its other operating
                                                                       units perform a substantial amount of market access and trade
Also during this semiannual period, we concluded an audit of           compliance work. Overall, ITA’s approach to trade compliance
NMFS’ acquisition of services to secure fishery research support       and market access is to engage the issue at the working level wher-
(see page 33). This review was prompted by our audit of an NMFS        ever possible, thus avoiding formal dispute settlement structures
financial assistance recipient conducting biological sampling and      such as the World Trade Organization, which can take years to
data collection for Pacific salmon, which turned up information        resolve trade disagreements. The Department and ITA pursue
suggesting that NMFS may have inappropriately used coopera-            important matters of policy—such as intellectual property rights
tive agreements to acquire the services. Our follow-up assessment      protection, standards development, trading rights, and distribu-
revealed that these services were for work that directly benefited     tion services—in government-to-government negotiations.
the federal government, and as such, should have been secured by
contracts, not cooperative agreements.                                 Commerce’s many overseas US&FCS offices and domestic U.S.
                                                                       Export Assistance Centers (USEACs) help U.S. companies iden-
                                                                       tify specific export market opportunities or trade leads and offer
                                                                       other trade promotion and export finance counseling services, es-
                                                                       pecially to small and medium-size firms that are new to exporting
CHALLENGE 6                                                            or looking to expand their overseas markets. During this semian-
                                                                       nual period, we reviewed three USEAC networks—Chicago, Pa-
PROMOTE FAIR COMPETITION IN                                            cific Northwest, and Philadelphia—assessing their management,
INTERNATIONAL TRADE                                                    operations, and performance; their ability to provide value-added
                                                                       export counseling to U.S. companies; and their success at develop-
To compete effectively in today’s global marketplace, many U.S.        ing relationships with federal and nonfederal trade promotion part-
companies need help identifying and taking advantage of new or         ners (see page 24). In all three cases, we found that client satisfac-
expanded export market opportunities as well as addressing un-         tion was high, strong relationships generally existed with local part-
fair trade practices, trade disputes with foreign firms, noncompli-    ners, and financial and administrative operations were generally
ance with or violations of trade agreements, inadequate intellec-      sound. However, in all three networks, we found some inconsis-
tual property protection, and other impediments to fair trade. Com-    tencies in reporting and oversight that led to overstated export suc-
merce must ensure that its export promotion assistance and trade       cess dollar values—one key barometer of performance—for the
compliance and market access efforts adequately serve U.S. ex-         periods we reviewed. When presented with these issues, ITA dem-
porters and its enforcement of U.S. trade laws helps eliminate un-     onstrated that it was aware of and was taking systematic organiza-
fair competition from imports priced at less than fair market value    tion-wide steps to address some of these reporting problems.
or subsidized by foreign governments.
                                                                       We are currently analyzing the crosscutting, systemic issues we
To help meet the challenges in highly competitive world markets,       identified in these three reviews. One such issue is that US&FCS
Commerce and its International Trade Administration (ITA) work         is not recovering the full costs for some of its fee-based products



March 2004/Semiannual Report to Congress                                                                                                  9
Major Challenges for the Department




and services. OMB Circular A-25 requires federal agencies to re-          National Defense Authorization Act (NDAA) for Fiscal Year 2000,
cover the full costs of goods and services they provide to custom-        as amended, directed the inspectors general of the Departments
ers when such resources convey benefits beyond those enjoyed by           of Commerce, Defense, Energy, and State, in consultation with
the general public. In addition, US&FCS’ own fee policy conflicts         the directors of the Central Intelligence Agency and the Federal
with OMB’s in that it requires recovery of direct costs only. ITA         Bureau of Investigation, to report to Congress by March 30, 2000,
has asked OMB to waive the requirement and is awaiting a deci-            and annually until the year 2007, on the adequacy of export con-
sion. In requesting the waiver, ITA contends that it is not able to       trols and counterintelligence measures to prevent the acquisition
comply with Circular A-25 because compliance would jeopardize             of sensitive U.S. technology and technical information by coun-
its congressionally mandated mission to increase U.S. exports.            tries and entities of concern. In addition, NDAA for FY 2001 re-
                                                                          quires the IGs to discuss in their annual interagency report the
Our USEAC findings mirror those of our recent reviews of over-            status or disposition of recommendations made in earlier reports
seas operations. Inspections of US&FCS posts in Greece and Tur-           submitted in accordance with the act. To date, we have completed
key revealed that, again, most customers were satisfied with the          five reviews of export controls in compliance with the act as well
products and services they received, but both posts had overstated        as four separate follow-up reports. Together with the other IGs,
the value of their export successes. (For more detail on Greece,          we have also issued five interagency reports on export controls
see September 2003 Semiannual Report, page 22. For Turkey, see            for dual-use items and munitions.
the March 2003 issue, page 19.) As noted earlier, however, we
learned during follow-up discussions with ITA management that
                                                                          REVIEW OF DEEMED EXPORT CONTROLS
ITA was addressing this issue organization-wide to ensure that
US&FCS staff consistently adhere to reporting guidelines.                 To comply with the NDAA’s FY 2004 requirement, we sought to
                                                                          assess (1) the effectiveness of the dual-use deemed export regula-
We will continue our oversight of the Department’s promotion of           tions and policies,5 including their implementation by BIS, and (2)
U.S. exports and also look at Commerce’s efforts to track, detect,        compliance with the regulations by U.S. industry and academic insti-
and combat unfair competition to U.S. industry in domestic markets.       tutions. We also followed up on prior OIG findings and recommen-
                                                                          dations from our March 2000 report, Improvements Are Needed in
                                                                          Programs Designed to Protect Against the Transfer of Sensitive Tech-
                                                                          nologies to Countries of Concern (IPE-12454-1), as appropriate.
CHALLENGE 7
                                                                          Our report highlights some areas that are working well, such as
ENHANCE EXPORT CONTROLS                                                   certain aspects of BIS’ deemed export outreach program. How-
FOR DUAL-USE COMMODITIES                                                  ever, we identified problems that hamper the efforts of both BIS
                                                                          and the U.S. government to more effectively prevent the transfer
In today’s political climate, hostile countries and terrorist groups      of sensitive technology to foreign nationals from countries or en-
seeking weapons of mass destruction and the systems to deliver            tities of concern while they are in the United States. To address
them pose new threats to global security and U.S. foreign policy          these issues, we recommended that BIS (1) modify or clarify some
goals. In this environment, advancing U.S. national and economic          of the dual-use deemed export licensing regulations and policies,
security interests through export controls has become an ever-            (2) expand its efforts to raise awareness of deemed export control
greater challenge for the agencies that share this responsibility, par-   regulations by refocusing its outreach and periodically updating
ticularly for Commerce’s Bureau of Industry and Security, which           its deemed export guidance, and (3) institute a deemed export
oversees the federal government’s export licensing and enforce-           compliance program. We also encouraged BIS to work with Con-
ment system for goods and technologies that have both civilian            gress and the National Security Council to reexamine the broadly
and military uses (“dual-use commodities”). Strengthening dual-           applied licensing exemptions contained in the Export Adminis-
use export licensing and enforcement requires new, comprehen-             tration Regulations that allow foreign nationals access to other-
sive legislative authority to replace the expired Export Administra-      wise controlled technology. (See page 14.)
tion Act of 1979 and appropriately address current export control
needs and realities. Passed during the Cold War, the act sought to        In addition to our assessment of Commerce-administered deemed
prevent the export of critical goods and technologies to Commu-           export regulations and policies, the interagency OIG review team
nist bloc countries. Legislation is needed to address the new threats
posed by terrorism as well as to bolster BIS’ regulatory authority,       5
                                                                            According to the Export Administration Regulations, any release to a
strengthen penalties for violations, and maintain strong export con-      foreign national of technology or software subject to the regulations is
trols while encouraging other countries to do the same.                   deemed to be an export to the home country of the foreign national. These
                                                                          exports are commonly referred to as “deemed exports,” and may involve
Given the importance of export controls to national security, we          the transfer of sensitive technology to foreign visitors or workers at U.S.
devote considerable attention to the challenges facing BIS. The           research laboratories and private companies.



10                                                                                                    March 2004/Semiannual Report to Congress
                                                                                                           Major Challenges for the Department




        NUMBER OF DEEMED EXPORT LICENSE APPLICATIONS                                                    ties, the Department has made signifi-
                 PROCESSED IN FYS 2000-2003                                                             cant improvements, but the challenge
               1000                                                                                     remains. Heightened security requires
                      866                                                                               a variety of measures: infrastructure
                            826
                800                     777                                                             risk assessments, emergency backup
Applications
 Number of




                                  592                                                                   sites, upgraded physical security, and
                600                                                                                     employee awareness and training, to
                400                                                                                     name a few. The Department has made
                                                                                                        significant progress in these areas, but
                200                                                               196
                                                                             99         110             it will need to regularly revisit that
                                                                                              60        progress to ensure it adequately pro-
                                                   3    3     4    9
                 0
                            Approved                   Rejected             Returned Without            vides for the safety and security of em-
                                                                                 Action                 ployees and operations, and must make
                                              Status of Application                                     modifications as needed.
                                  2000         2001            2002         2003
                                                                                                        Commerce has taken a number of ac-
Source: Export Administration, Bureau of Industry and Security                                          tions to enhance security thus far this
                                                                                                        year. This includes its completion of a
                                                                                                        new draft policy on security and a new
(Commerce, Defense, Energy, State, and the CIA) and the De-                 chapter in its security manual, both of which relate to foreign na-
partment of Homeland Security’s OIG6 completed a crosscutting               tional visitors and guest researchers in Commerce facilities. The
review of the adequacy and effectiveness of government-wide                 draft policy is currently being coordinated with Commerce bu-
deemed export control laws and regulations to determine if they             reaus. The Department also is developing a counterespionage risk
protect against the transfer of controlled U.S. technologies and            assessment program, using an emergency operations center to
technical information. The interagency OIG report will be dis-              oversee crisis management response during and after an emer-
cussed in detail in our September 2004 report to Congress.                  gency, updating its continuity of operations and emergency op-
                                                                            erations plans, and providing regular information and training on
FOCUSED PRIORITIES                                                          emergency preparedness to Commerce employees.

While BIS, the administration, and Congress work to (1) target              Given the size of its workforce and the geographical spread of its
federal licensing and enforcement efforts on exports that present           hundreds of facilities nationwide and at more than 150 overseas
the greatest proliferation and national security risks and (2) stream-      locations, complying with recent security-related guidance is a
line or eliminate controls that hamper trade and are not necessary          complex, resource-intensive undertaking for Commerce. Our in-
to address national security or foreign policy concerns, congres-           spections of overseas posts and domestic U.S. Export Assistance
sional enactment of a new Export Administration Act is vital to             Centers operated by the U.S. and Foreign Commercial Service
the success of the U.S. government’s efforts to enhance export              identified the need for more timely security upgrades, improved
controls. We will continue to monitor BIS’ efforts to improve dual-         oversight of security operations, and in some cases, specific secu-
use export controls through the annual reviews required by the              rity improvements.
National Defense Authorization Act.
                                                                            Security of U.S. embassies throughout the world remains an im-
                                                                            portant priority. The Department has requested an appropriations
                                                                            increase of $4.5 million in FY 2005 to help fund ITA’s share of
CHALLENGE 8                                                                 the State Department’s Capital Security Cost Sharing Program,
                                                                            which proposes to build more than 150 high-security embassies
ENHANCE EMERGENCY                                                           and consulates during the coming years, at a total cost of more
PREPAREDNESS, SAFETY, AND                                                   than $15 billion. Under the cost-sharing program, all agencies rep-
SECURITY OF COMMERCE                                                        resented in U.S. embassies and consulates will be charged on a
FACILITIES AND PERSONNEL                                                    worldwide per capita basis.

Since our March 2002 report on the status of emergency prepared-            We believe Commerce is making progress on many emergency
ness and security programs at a cross-section of Commerce facili-           preparedness, safety, and security fronts, but the challenge is mas-
                                                                            sive. We will continue to monitor its efforts and report our find-
6
  Homeland Security participated in this year’s assessment because of the   ings accordingly.
nature of the review topic.



March 2004/Semiannual Report to Congress                                                                                                  11
Major Challenges for the Department




CHALLENGE 9                                                                   Despite these accomplishments, maintaining a clean audit opin-
                                                                              ion remains a major challenge under the accelerated financial re-
                                                                              porting dates mandated by the Office of Management and Budget
STRENGTHEN FINANCIAL                                                          (OMB) for fiscal year 2004. The Department must now have its
MANAGEMENT CONTROLS AND                                                       FY 2004 consolidated financial statements prepared and audited
SYSTEMS                                                                       within 45 days of fiscal year-end.

The Chief Financial Officers Act of 1990, the Government Per-
formance and Results Act of 1993, the Government Management
Reform Act of 1994, and the Federal Financial Management Im-
provement Act of 1996 require that agencies prepare information               CHALLENGE 10
needed by Congress, agency executives, and the public to assess
the management of federal programs and operations. Also required              CONTINUE TO IMPROVE THE
are audits of an entity’s financial statements to determine whether           DEPARTMENT’S STRATEGIC
its financial position and results of operations are presented fairly         PLANNING AND PERFORMANCE
and whether its financial management systems comply with fed-
                                                                              MEASUREMENT IN ACCORDANCE
eral requirements.
                                                                              WITH THE GOVERNMENT
The Department as a whole has made substantial improvements in                PERFORMANCE AND RESULTS ACT
financial management, and received an unqualified (clean) opinion
on its FY 2003 consolidated financial statements—the fifth con-               Congress and agency managers require relevant performance
secutive year for this accomplishment. The Department resolved                measures and credible performance data to effectively oversee
the weaknesses in its accounting for personal property and made               federal programs. The Government Performance and Results Act
noteworthy improvements in its financial management systems (both             of 1993 was designed to ensure the availability of such data by
problems noted in the previous year’s audit). One reportable condi-           mandating that agencies set goals for program performance and
tion related to financial management systems was identified (which            report outcomes measured against them. The validity of reported
had in prior years been a material weakness7 ) as well as two repeat          performance results is essential in order for government agencies
findings of noncompliance with laws and regulations (see page 39).            to develop integrated budget and performance information and
                                                                              use performance data to make funding decisions.
In FY 2003, the Department substantially complied with the Fed-
eral Financial Management Improvement Act and OMB Circular                    Over the past several years, we have reviewed the collection and
A-127 requirements for a single, integrated financial management              reporting of performance data by 6 of Commerce’s 14 operating
system, by having completed implementation of the Commerce                    units. Our audits have identified the need for (1) stronger internal
Administrative Management System (CAMS)8 at all but one bu-                   controls to ensure that reported data is accurate and (2) improved
reau, and using it in conjunction with a Commerce-wide database               explanations and disclosures of results to clarify and enhance the
for consolidated financial reporting. Ten departmental entities, in-          usefulness of the results. In every case we offered recommenda-
cluding the Bureau of the Census and NOAA, used CAMS as                       tions to address these problems.
their financial system of record in fiscal year 2003. In addition,
CAMS was deployed at NIST at the beginning of FY 2004, thus                   During this past semiannual period, these same issues emerged in
replacing the only remaining system not in compliance with fed-               our audit of performance measures at the Bureau of the Census.
eral requirements.                                                            We found that the reliability and usefulness of reported informa-
                                                                              tion is undercut by (1) imprecise measures and related targets, (2)
                                                                              incorrect descriptions of verification procedures, and (3) conflict-
7
  Material weaknesses are serious flaws in the design or operation of an      ing and incomplete disclosures. (See page 22.) An in-progress audit
internal control component that increase the risk that errors, fraud, or      at NOAA is finding similar issues, suggesting a possible systemic
noncompliance in material amounts may occur and not be readily de-            weakness in these areas.
tected. Reportable conditions are significant deficiencies in the design or
operation of an internal control component that could adversely affect
                                                                              The operating units for which we have completed audits have been
the organization’s ability to record, process, summarize, and report fi-
nancial statement data.                                                       responsive to our recommendations: they have generally devel-
                                                                              oped action plans to address identified deficiencies and have re-
8
 CAMS is a software package based on a commercial off-the-shelf account-      vised previously reported performance information accordingly.
ing system application that was extensively modified and substantially aug-   As each unit takes such steps, we are more confident that perfor-
mented with capabilities to support both departmental accounting and finan-   mance data will become increasingly reliable and useful, and thus
cial management needs as well as individual Commerce unit requirements.       better serve the purpose and intent of GPRA.



12                                                                                                     March 2004/Semiannual Report to Congress
Department of Commerce Organization Chart
                       BUREAU OF INDUSTRY
                       AND SECURITY

                                      DEEMED EXPORT CONTROLS MAY NOT STOP

    T
             he                               THE TRANSFER OF SENSITIVE TECHNOLOGY
           Bureau of
           Industry and Security is                 TO FOREIGN NATIONALS IN THE U.S.
    primarily responsible for adminis-
    tering and enforcing the nation’s                     To meet the fifth-year requirement of the National Defense Authorization Act for
    system for controlling exports of sensitive             Fiscal Year 2000, the inspectors general of the Departments of Commerce, De-
    dual-use goods and technologies. BIS’ major               fense, Energy, Homeland Security, and State,9 and the Central Intelligence Agency
    functions include formulating and implement-                conducted an interagency review to determine whether deemed export control
    ing export control policy; processing export                  laws and regulations prevent the transfer of controlled U.S. technologies and
    license applications; conducting various policy,               technical information to foreign nationals from countries and entities of
    technical, and economic analyses; promulgating                   concern. Within Commerce, we assessed how effectively the dual-use
    regulations; conducting industry outreach; and                    deemed export regulations and policies, as implemented by BIS, prevent
    enforcing the Export Administration Act and regula-                such transfer, and whether U.S. industry and academic institutions are
    tions. BIS’ activities also include promoting federal               complying with the regulations. Our specific observations follow.
    initiatives and public-private partnerships across industry
    sectors to protect the nation’s critical infrastructures. BIS         REGULATIONS AND POLICIES COULD
    is divided into two units:                                            ENABLE FOREIGN NATIONALS FROM
                                                                          COUNTRIES AND ENTITIES OF CONCERN
    Export Administration implements U.S. export control                  TO ACCESS OTHERWISE CONTROLLED
    and nonproliferation laws and policies through export                 TECHNOLOGY
    licensing, commodity classifications, and advisory
    opinions; technical, economic, foreign availability, and              Some of the deemed export licensing exemptions in the Export Ad-
    policy analyses; promulgation of regulations; and                    ministration Regulations (EAR) as well as BIS’ deemed export li-
    industry outreach. It also conducts various defense                  censing policies may inadvertently affect national security, and re-
    industry activities and enforces industry compliance                quire further examination.
    with arms control treaties.

    Export Enforcement participates in reviews of                      Export controls for technical data apply to a wide variety of
    export license applications and conducts criminal                  information, including technology related to the design,
    and administrative investigations relating to the                  development, and use of certain products such as comput-
    export control portions of the Export Admin-                       ers, semiconductors, integrated circuits, lasers, and sen-
    istration Act and regulations. It also                             sors. According to the Export Administration Regulations,
    administers and enforces the antiboycott                           any release to a foreign national of technology or software
    provisions of the act and regulations.                             subject to the regulations is deemed to be an export to the
                                                                       foreign national’s home country. These deemed exports
                                                                       may involve the transfer of sensitive technology to foreign
                                                                       visitors or workers at U.S. private, public, or government
                                                                       research laboratories and private companies. In FY 2003
                                                                       BIS processed 12,443 export license applications; approxi-
                                                                       mately 846 (7 percent) were for deemed exports.


9
 NDAA mandates that the IGs, in consultation with the directors of Central Intelligence and the FBI, assess the adequacy of export controls and
counterintelligence measures for preventing countries and entities of concern from acquiring sensitive U.S. technology and technical information. The
act further mandates that the IGs report their findings to Congress no later than March 30 of each year, until 2007.



14                                                                                                      March 2004/Semiannual Report to Congress
                                                                                                                   Bureau of Industry and Security




EAR exemptions eliminate a large number of foreign nationals                 fundamental research exemption for most of its research. How-
from dual-use export controls. As we noted in 199910 and 2000,11             ever, when controlled equipment is used by foreign nationals at a
the EAR does not require licenses for foreign nationals working              U.S. university or federal research facility, it is most likely ac-
with publicly available technology and software that (1) are al-             companied by a transfer of technology. Some academics believe
ready or will be published, (2) arise during or result from funda-           such equipment use is exempt from export licensing requirements
mental research, (3) are educational, or (4) are included in certain         if the use occurs when working on fundamental research. But ac-
patent applications. As such, many foreign students or researchers           cording to BIS, the technology for the “use” of controlled equip-
at U.S. academic institutions and federal research facilities are ex-        ment is subject to the deemed export provisions regardless of
empt from the regulations, as are foreign nationals who are perma-           whether the associated research is fundamental. This means that
nent U.S. residents. We previously recommended that BIS work                 academic and federal laboratories might need to seek deemed ex-
with the National Security Council and Congress to ensure that               port licenses for some foreign nationals working with controlled
deemed export control policies and regulations are clear and de-             equipment or otherwise restrict their access to it. BIS needs to
void of loopholes that would permit countries or entities of con-            clarify the definition of “use” accordingly and ensure that the U.S.
cern to obtain protected U.S. equipment or technology. BIS raised            academic, federal, and industrial research community understands
this issue with the council in 2000, but no action has been taken.           and complies with licensing requirements.

Confusion exists over the “use” of controlled equipment. Con-                Citizenship/residency requirements could permit unintended
fusion over the definition and implementation of controls associ-            access. The bureau’s deemed export licensing policy only recog-
ated with the “use” of EAR-controlled equipment by foreign na-               nizes a foreign national’s most recent citizenship or permanent resi-
tionals creates opportunities for inappropriate transfers. The EAR           dency, and thus allows foreign nationals originally from countries
defines “use” as “operation, installation (including on-site instal-         of concern to obtain access to controlled dual-use technology if
lation), maintenance (checking), repair, overhaul, and refurbish-            their current citizenship or permanent resident status is with a coun-
ing,” and some BIS licensing officials maintain that all these ac-           try not subject to controls. We recommended that BIS amend its
tivities must occur to constitute “use.” While BIS normally grants           current policy to require U.S. entities to apply for a deemed export
approval for a foreign entity to operate, install, maintain, repair,         license for foreign national employees or visitors who will have
overhaul, and refurbish a piece of controlled equipment exported             such access to controlled technology if they were born in a country
from the United States in order to permit the full range of uses for         where the technology is subject to EAR controls, though their cur-
an export, the same definition of use does not seem to apply to              rent citizenship or residency may be in a country that is not.
foreign nationals “using” the equipment in the United States. It is
unlikely that one individual would accomplish all these tasks in             BIS stated that it is prepared to consider modifying its current
most situations. In addition, two of the four multilateral control           policy of only recognizing a foreign national’s most recent coun-
regimes12 define the term either with an “or,” or without any con-           try of permanent residency or citizenship for purposes of deter-
nector word (i.e., a bullet listing of the activities). The Defense          mining deemed export license requirements. However, the bureau
Technology Security Administration notes each of the listed ac-              noted that (1) its policy reflects the traditional understanding of
tivities with the compound conjunction “and/or.”                             citizenship as denoting a substantial personal connection to a given
                                                                             country, and (2) its current licensing practice includes a thorough
This difference in interpretation is critical in determining how to          review of the foreign national’s contacts (personal, professional,
enforce EAR’s deemed export provisions. For instance, the U.S.               financial, and employment related). The bureau further stated that
academic and federal research community generally uses EAR’s                 it would work with the Office of Chief Counsel for Industry and
                                                                             Security to identify any potential legal impediments or inappro-
10
   Improvements Are Needed to Meet the Export Licensing Requirements         priate policy outcomes that should be considered if BIS were to
of the 21st Century, U.S. Department of Commerce Office of Inspector         modify its current policy on the matter.
General, IPE-11488, June 1999.
11
   Improvements Are Needed in Programs Designed to Protect Against           BIS’ approval of licenses is inconsistent with EAR policies.
the Transfer of Sensitive Technologies to Countries of Concern, U.S. De-     BIS approved 78 of 107 deemed export license applications (73
partment of Commerce Office of Inspector General, IPE-12454-1, March         percent) involving foreign nationals from Iran (76) and Iraq (2)
2000.                                                                        between FYs 2000-2003, citing as justification a 1997 legal opin-
12
   The United States is a member of several multilateral regimes concerned
                                                                             ion by the agency’s former deputy chief counsel. The opinion states
with the export of dual-use and munitions items to countries of concern.
Those organizations include the Australia Group (concerned with the pro-
                                                                             that deemed export licenses are permissible for foreign nationals
liferation of chemical and biological weapons), the Missile Technology       from Iran and Iraq because the laws prohibiting “exports” to those
Control Regime (concerned with the proliferation of missiles capable of      two countries did not apply to their respective nationals. How-
delivering weapons of mass destruction), the Nuclear Suppliers Group (con-   ever, the EAR states that the release of controlled technology to a
cerned with nuclear weapons proliferation), and the Wassenaar Arrange-       foreign national “is deemed to be an export to the home country
ment (concerned mainly with the transfer of conventional weapons).           or countries of the foreign national.” BIS should reevaluate its



March 2004/Semiannual Report to Congress                                                                                                     15
Bureau of Industry and Security




approval of deemed export licenses for foreign nationals from Iran       on-site monitoring. BIS has stated that it will initiate a pilot pro-
and Iraq to ensure they are consistent with current law and deemed       gram to conduct pre-license checks and post-shipment verifica-
export control licensing policies and procedures.                        tions for deemed exports. We believe this end-use check program
                                                                         for deemed exports—when implemented—will meet the intent of
BIS stated that it has the discretion to approve deemed export           our recommendations.
license applications to Iraqi or Iranian nationals when there is no
knowledge that the individuals will actually “export” the technol-       DEEMED EXPORT CONTROL COMPLIANCE
ogy back to Iraq or Iran. While we acknowledge that BIS has the          BY COMMERCE BUREAUS IS MIXED
authority, with the concurrence of the other reviewing Departments,
to approve deemed export license applications involving Iraqi and        As part of our review, we followed up on recommendations made
Iranian nationals, we reminded the bureau that, according to EAR,        to NIST and NOAA in FY 2000 regarding their compliance with
export applications to these countries are subject to a general policy   deemed export control licensing for foreign national visitors to
of denial.                                                               their facilities.

BIS COULD FURTHER RAISE AWARENESS                                        NIST had instituted a policy to regulate foreign national access to
OF DEEMED EXPORT CONTROL                                                 controlled technologies after our March 2000 review, and pro-
REGULATIONS BY REFOCUSING                                                vided deemed export control training to employees. Though NIST
OUTREACH AND CLARIFYING WEB SITE                                         maintained that the majority of its research is fundamental and
INFORMATION                                                              therefore exempt from deemed export controls, we learned that
                                                                         agency officials were unaware that technology for the “use” of
BIS has greatly expanded its efforts to raise awareness of deemed        controlled equipment during the conduct of fundamental research
export controls since our March 2000 report. But expanded ac-            by foreign nationals is still subject to the EAR.
tivities in FY 2003 mainly focused on companies and industry
sectors that already apply for deemed export licenses rather than        During our current survey work, we identified at least one EAR-
on those that do not. BIS needs a strategic outreach plan that tar-      controlled commodity at a NIST facility that may be accessible to
gets priority industries, federal agencies, and academic institu-        foreign nationals. Because NIST is unsure of what other EAR-
tions not currently applying for licenses. The bureau also needs to      controlled equipment may be housed at its facilities, it should re-
clarify and periodically update some of the EAR information avail-       view its equipment on hand in the labs to identify any that is EAR-
able on its web site to help exporters better evaluate applicability     controlled; interview managers of labs that have controlled equip-
of the regulations to their particular situation.                        ment to establish which foreign nationals (if any) use or have ac-
                                                                         cess to the equipment; and work with BIS to develop an effective
BIS NEEDS A DEEMED EXPORT                                                means for identifying when a deemed export license may be re-
COMPLIANCE PROGRAM                                                       quired. In addition, NIST should provide periodic training on
                                                                         deemed export requirements to employees who work with EAR-
The EAR allows BIS to limit a transaction authorized under an            controlled technology or equipment.
export license by placing conditions on the license itself. For in-
stance, deemed export license conditions might state “no expo-           NOAA lacks a policy for effectively monitoring foreign national
sure to [Defense] contracts will be allowed” or “use of computers        access to controlled technology despite our March 2000 recom-
[above a certain threshold] must be controlled and monitored to          mendations and subsequent follow-up in this area. NOAA believed
ensure that only job-related work is performed.” Placing condi-          that deemed export controls for the most part did not apply to the
tions on a license provides the bureau with an additional means of       work of its line offices because their research was primarily fun-
monitoring certain transactions. However, BIS stated previously          damental. Like their counterparts at NIST, however, NOAA offi-
that it lacks the resources needed to adequately monitor compli-         cials were generally unaware that the technology for the “use” of
ance. Monitoring license conditions is an important component            controlled equipment during the conduct of fundamental research
of ensuring that licenses are used as authorized in the interagency      by foreign nationals is subject to the EAR, and the agency has
review process. A company’s failure to comply with license con-          since indicated that some NOAA facilities might contain controlled
ditions should be a factor in the interagency review of future li-       equipment accessible to foreign visitors or guest researchers.
cense applications for that company.
                                                                         In response to our past and present concerns, NOAA is develop-
In response to prior OIG recommendations concerning compli-              ing deemed export control policies and procedures. Like NIST,
ance with license conditions, BIS plans to develop a “license con-       NOAA should also (1) review its equipment inventory to identify
dition enforcement program” in FY 2005. BIS needs a compli-              commodities that are EAR-controlled, (2) identify foreign nationals
ance program that effectively evaluates license holders’ compli-         who have access to them, and (3) work with BIS to develop any
ance with conditions and deemed export regulations, to include           needed controls and determine when a deemed export license may



16                                                                                                 March 2004/Semiannual Report to Congress
                                                                                                                Bureau of Industry and Security




be required. Finally, NOAA should review the research it con-              MARCH 2003 REPORT
ducts or sponsors to determine whether it is subject to deemed
export controls.                                                           Last year’s review of export control enforcement yielded 55 rec-
                                                                           ommendations to BIS and 4 to ITA regarding deficiencies in in-
Given the potential security vulnerabilities identified at NIST and        vestigative processes, license determinations and oversight, out-
NOAA, we also recommended that the Department’s Office of                  reach to U.S. exporters, and end-use checks. BIS has resolved or
Security enforce its security policies (including that for conduct-        taken appropriate action on 36 recommendations, but has yet to
ing periodic on-site security reviews) related to foreign national         adequately address the remaining 19. These deal with the need to
visitors or guest researchers in Commerce facilities and hold the          improve administrative and criminal case processing and outcomes,
bureaus accountable for compliance.                                        enhance interagency enforcement relationships, adequately moni-
                                                                           tor licenses with reporting conditions, foster greater industry un-
BUREAU RESPONSES                                                           derstanding of and compliance with export controls, improve in-
                                                                           formation sharing among U.S. government agencies, and institute
BIS, NIST, NOAA, and the Department’s Chief Financial Officer              internal controls in its automated licensing system to strengthen
and Assistant Secretary for Administration generally agreed with           its pre-license check process.
our recommendations and reported that responsive action is
planned or under way. For example, the Department’s Office of              ITA has adequately addressed all four of our recommendations
Security was working with both NIST and NOAA to help                       for helping US&FCS conduct end-use checks more effectively.
strengthen their security procedures, had developed a chapter in
its security manual and drafted a new departmental policy related          FEBRUARY 2002 REPORT
to foreign national visitors and guest researchers, and was work-
ing more closely with other federal agencies on visa and counter-          This review focused on BIS’ plans for and progress toward mod-
intelligence matters that impact Commerce security. The Depart-            ernizing its Export Control Automated Support System (ECASS)
ment is also developing a new risk assessment program that in-             for dual-use export licensing. Five of our 13 recommendations
cludes on-site evaluations to mitigate the risks associated with           remain open. They deal with the critically important needs to iden-
espionage. However, NIST’s response did take issue with a num-             tify and secure adequate funding for the project, validate require-
ber of our observations and conclusions, which we address as ap-           ments for the licensing subsystem, document security require-
propriate, in the body of the report. (Office of Inspections and           ments, revise and approve the project management plan, complete
Program Evaluations: IPE-16176)                                            the target architecture, and select a location to house the system.
                                                                           We were particularly troubled by the fact that during the prior
                                                                           year, estimated costs for the redesign jumped from $7.5 million to
                                                                           $24.5 million, and the projected completion date pushed out from
ANNUAL EXPORT CONTROL                                                      FY 2006 to FY 2008. Additionally, BIS—as the federal agency
                                                                           charged with administering the dual-use controls process—is still
FOLLOW-UP REVIEW                                                           not effectively coordinating the ECASS modernization with the
IDENTIFIES OPEN                                                            interagency export licensing community.
RECOMMENDATIONS FROM
                                                                           In response to the issues raised, BIS has taken the critical step of
FISCAL YEARS 2001                                                          halting the ECASS redesign project until a new chief information
THROUGH 2003                                                               officer has been hired and a new requirements study has been com-
                                                                           pleted.
Our NDAA-mandated follow-up of export control recommenda-
tions from the four prior annual reviews we have completed since           MARCH 2001 REPORT
the act’s implementation13 noted closure of all outstanding issues
from 2000, but numerous items from subsequent years are still open.        Three of 14 recommendations remain open from our review of
                                                                           BIS policies and procedures for designing and administering the
13
                                                                           Commerce Control List (CCL), which specifies the technologies
  March 2000: Improvements Are Needed in Programs Designed to Pro-
tect Against the Transfer of Sensitive Technologies to Countries of Con-
                                                                           and commodities subject to Export Administration Regulations.
cern; March 2001: Management of the Commerce Control List and Re-          Specifically, BIS still needs to make the CCL more user friendly;
lated Processes Should Be Improved; February 2002: BXA Needs to            work with the National Security Council to review and possibly
Strengthen Its ECASS Modernization Efforts to Ensure Long-Term Suc-        revise commodity classification guidance; and provide State with
cess of the Project; March 2003: Improvements Are Needed to Better         copies of the final determinations on commodity classifications
Enforce Dual-Use Export Control Laws.                                      that it reviews.




March 2004/Semiannual Report to Congress                                                                                                 17
Bureau of Industry and Security




MARCH 2000 REPORT                                                     charges made to the cards, consistently track and follow-up on all
                                                                      card delinquencies, or notify supervisors of problem accounts. In
In our FY 2004 NDAA report on deemed exports (see page 14),           an effort to identify any abuse of the travel card program by its
we address a number of open issues we first raised in our March       employees, at the beginning of fiscal year 2003 BIS conducted an
2000 report. As a result, we closed the five recommendations that     internal review of all travel card transactions for the preceding
we identified as still open in FY 2000—four of which pertained        fiscal year. As a result of the review BIS discovered that 19 of its
to BIS and one to NOAA. (Office of Inspections and Evaluations:       312 cardholders had used their cards for inappropriate personal
IPE-16178)                                                            use and began to take remedial action.

                                                                      Having determined that BIS’ internal review was both compre-
                                                                      hensive and reliable, we found no need to conduct a full-scale
BIS TAKES PROMPT ACTION                                               audit, but suggested a number of ways that BIS could further
TO CORRECT WEAKNESSES                                                 enhance the administration of the program: (1) review monthly
                                                                      transactions for all BIS employees; (2) develop a plan for con-
IN ITS TRAVEL CARD                                                    sistent follow-up of problem accounts; (3) improve controls over
PROGRAM                                                               credit limits and number of cards issued; (4) reinforce travel card
                                                                      requirements (e.g., ensure that cardholders take required train-
                                                                      ing and periodically update their Employee Acknowledgment
An audit survey of the BIS travel card program concluded that         forms); and (5) implement a disciplinary plan for travel card
overall, the program is currently administratively sound. How-        misuse.
ever, this has not always been the case. Prior to fiscal year 2003,
our audit survey showed that BIS personnel did not, as required       BIS took prompt action to implement our suggestions, and we
by departmental policy, generally conduct any monthly review of       thus closed out our review. (Office of Audits: BTD-15771)




18                                                                                             March 2004/Semiannual Report to Congress
                                   ECONOMIC DEVELOPMENT
                                   ADMINISTRATION

                                   REVOLVING LOAN FUNDS


  T
             he                                EDA’s Economic Adjustment Program provides, among other things, grants to capitalize
             Economic                             revolving loan funds (RLFs). Currently more than 600 RLFs are operating throughout
             Development                             the country, with a total capital base of about $1 billion. This includes EDA’s share
  Administration was established                        of the initial investment and matching funds contributed by state and local gov-
  by the Public Works and Economic                         ernments, nonprofit organizations, and other eligible recipients that operate
  Development Act of 1965 to generate                        RLFs. The program focuses on communities and regions that have experi-
  new jobs, help retain existing jobs, and                      enced or are threatened by serious structural damage to their underlying
  stimulate commercial and industrial growth                     economic base. The purpose of an RLF is to leverage other public and
  in economically distressed areas of the United                  private investment in key sectors of the local economy and to stimulate
  States. EDA continues to fulfill this mission                     employment for the local workforce. RLFs offer loans to local busi-
  under the authority of the Economic Development                    nesses that otherwise cannot secure sufficient private financing, pro-
  Administration Reform Act of 1998, which                             viding a continuous infusion of economic development funds into
  introduced the concept of Comprehensive Economic                       the affected community.
  Development Strategies, a local planning process
  designed to guide the economic growth of an area.                       Because RLFs manage cash and other liquid assets, they are par-
  Based on these locally and regionally developed                         ticularly susceptible to fraud, waste, and abuse if not adequately
  strategies, EDA works in partnership with state and                      managed and monitored. Recognizing the sizable federal invest-
  local governments, regional economic development                         ment in these funds, we have worked cooperatively with EDA over
  districts, public and private nonprofit organizations,                   the past several years to identify high-risk investments, and have
  and Indian tribes to help distressed communities                        conducted a series of RLF audits targeting projects on the basis of
  address problems associated with long-term economic                     a variety of factors that typically suggest heightened vulnerability.
  deterioration and recent, severe economic                              Such factors include minimal use of grant funds, large uncommit-
  dislocations, including recovery from the economic                    ted cash balances, and lack of single audit coverage. Our audits have
  impact of natural disasters, the closure of military                 identified several recurring issues, the most serious of which are
  installations and other federal facilities, changes in             ■ unneeded funds from recapitalization grants,
  trade patterns, and the depletion of natural
  resources. EDA provides eligible recipients                       ■ excessive cash reserves,

  with technical assistance, as well as grants for               ■ inappropriate loans,
  public works and economic development,
  planning, training and research, and                        ■ inadequate accounting for RLF assets (cash and loans), and

  economic adjustment.                                    ■ inadequate audit coverage.



                                                     Based on findings in individual audits, we have made recommendations, as appropri-
                                                 ate, to recoup unused grant funds, remedy fiscal and administrative deficiencies, and
                                             ensure compliance with applicable laws and program requirements. In all cases, EDA has
                                         required grant recipients to take prompt action to correct deficiencies, and has either sought
                                    immediate repayment of unused funds or allowed recipients additional time to generate new loan
                               activity.

Summarized below are the results of the three RLF audits we conducted this semiannual period, which include recommendations that
more than $2.3 million of revolving loan funds be put to better use. EDA is reviewing the audit findings and recommendations to
develop corrective action plans.




March 2004/Semiannual Report to Congress                                                                                                 19
Economic Development Administration




TERMINATION OF MISMANAGED                                               unused excess funds remaining in the account after 6 months to
WASHINGTON, D.C., RLF RECOMMENDED                                       the U.S. Treasury.

In September 1980, EDA awarded a $750,000 Long-Term Eco-                We further recommended requiring the authority to provide an
nomic Deterioration grant to the District of Columbia to establish      RLF plan for EDA’s approval; submit annual plan certifications
a revolving loan fund. The RLF—intended to stimulate economic           and complete semiannual status reports; document in the loan files
development and revitalize neighborhoods—is administered by             that applicants have no other sources of credit available; and en-
the city’s housing and community development department.                sure that the RLF program is properly accounted for in annual
                                                                        single audits. (Atlanta Regional Office of Audits: ATL-16544)
Our May 2003 audit disclosed a history of poor financial manage-
ment and noncompliance with EDA grant requirements: among               PENNSYLVANIA GRANTEE MUST REPAY
other things, the authority had understated RLF income by almost        MATCHING FUNDS TO RLF
$590,000; maintained inadequate documentation for borrowers
and loan balances; had not pursued collection of defaulted loans        EDA awarded $500,000 to a Pennsylvania development commis-
in 2 years; and had no support for $113,000 in administrative ex-       sion in 1984 for an RLF intended to promote business develop-
penses. Additionally, the authority had submitted inaccurate, in-       ment in six north central counties in the state. The required match-
complete, and untimely semiannual status reports; and was oper-         ing share of $166,667 brought total capitalization to $666,667. A
ating the fund without an approved RLF plan.                            subsequent amendment increased the award to $800,000 and the
                                                                        match to $266,667, for total capitalization of $1,066,667. City
We recommended that EDA’s Philadelphia regional director ter-           and county organizations were to provide the matching funds.
minate the grant for cause, recover the projected RLF balance of
$1,772,666, and transfer administration of $331,967 in outstand-        Our financial and compliance audit, covering October 1, 2000,
ing loans to another district agency. (Atlanta Regional Office of       through September 30, 2003, disclosed that the commission never
Audits: ATL-15984)                                                      fully controlled the matching funds: as loans were repaid, the con-
                                                                        tributing organizations reclaimed their portions of the match rather
AUDIT FINDS SIGNIFICANT                                                 than leaving them in the fund for subsequent lending. As a result,
NONCOMPLIANCE AT NEW                                                    the commission owes the RLF a total of $409,606—which in-
HAMPSHIRE RLF                                                           cludes the $266,667 match plus $142,939 in earned interest re-
                                                                        turned to the contributors.
We audited an RLF established in 1994 as part of a $1 million
Sudden and Severe Economic Dislocation grant awarded to a New           Additionally, the commission did not submit timely and accurate
Hampshire state port authority. The RLF was intended to create          semiannual reports, properly document borrower eligibility in loan
jobs and promote business and financial opportunities for unem-         files, or properly include the RLF in its annual single audits.
ployed fishing industry workers in two counties. EDA provided
$810,000 to capitalize the fund and initially required a $270,000       We recommended that the EDA Philadelphia regional director
match. As of September 30, 2003, the authority had 23 outstand-         require the commission to (1) suspend RLF lending activity until
ing loans totaling $603,296.                                            it reimburses the fund for $409,606, (2) submit timely and accu-
                                                                        rate semiannual reports, (3) provide required eligibility documen-
Our audit of the fund’s administration for the past 3 fiscal years      tation in borrowers’ files; and (4) ensure that the RLF program is
disclosed excess cash of $146,123 as of September 30, 2003—the          properly accounted for in annual single audits. (Atlanta Regional
result of inadequate loan activity. Additionally, the authority did     Office of Audits: ATL-16512)
not comply with numerous EDA requirements: it did not have an
approved RLF plan and failed to provide annual plan certifica-
tions; its single audit did not properly include the RLF, as required
by OMB Circular A-133; semiannual status reports were incom-            PUBLIC WORKS PROGRAM
plete; and loan files did not document the eligibility of borrowers.
                                                                        The Public Works Program empowers distressed communities in
To resolve the excess funds finding, we recommended that EDA’s          economic decline to revitalize, expand, and upgrade their physi-
Philadelphia regional director require the authority to (1) deposit     cal infrastructure to attract new industry, encourage business ex-
the $146,123 in excess funds into a separate interest-bearing ac-       pansion, diversify local economies, and generate or retain long-
count and remit the monthly interest to the U.S. Treasury; (2) use      term, private sector jobs and investment. In many cases, Public
the excess funds within 6 months to make loans in accordance            Works Program projects are used to upgrade or expand an area’s
with RLF program objectives; and (3) remit EDA’s share of any           economic infrastructure to support the next generation of indus-



20                                                                                               March 2004/Semiannual Report to Congress
                                                                                                    Economic Development Administration




try or commerce. Whenever possible, this program seeks to rede-      to $4.43 million, with the federal share not to exceed $2.61 mil-
velop existing facilities and industrial/commercial locations. EDA   lion. At the time of our audit (May through December 2003) the
encourages such redevelopment projects because they promote          grantee had claimed costs totaling $1.11 million for the period
sustainable economic development by taking advantage of readily      July 1997 through January 2002.
available infrastructure and markets. During this reporting period
we audited one public works grant.                                   The complainant alleged that the authority misled EDA to obtain
                                                                     the grant award by promising to redevelop the original building,
AUDIT FINDS NO IMPROPRIETY IN TEXAS                                  when its intention was to use the funds to develop a different build-
PROJECT’S LOCATION SWITCH                                            ing.

In January 2003, the U.S. Department of Housing and Urban De-        We determined that the authority acted appropriately in switching
velopment OIG referred to our office a complaint it received al-     the site of the development project because substantial hidden
leging improprieties in the conduct of an EDA-funded construc-       defects were discovered in the original building only as renova-
tion project by a Texas redevelopment authority.                     tion proceeded. Thus, claimed costs for this work were justifi-
                                                                     able, as was EDA’s decision to provide supplementary funding
The authority had received a public works grant in July 1997 to      and additional time to complete the project at the new location.
convert a college facility it had purchased from the city into a
business incubator for area entrepreneurs. The initial grant had     However, the authority did violate EDA grant terms by failing to
total estimated costs through February 1999 of $1.85 million, with   obtain competitive bids for asbestos removal services and by
the federal government’s share not to exceed $1.11 million.          awarding a prohibited cost-plus-percentage-of-cost contract to the
                                                                     engineering firm selected for the job. As a result, we questioned
The recipient subsequently requested EDA approval for renovat-       $188,316 in fees paid to the engineering firm and recommended
ing a different site and extending the completion deadline. EDA      that the EDA Austin regional director recover the agency’s share
agreed, and in September 2002 amended the grant to provide an        of that amount—$107,273. (Denver Regional Office of Audits:
additional $2.58 million. Estimated project costs thus increased     DEN-15908)




March 2004/Semiannual Report to Congress                                                                                            21
                        ECONOMICS AND STATISTICS
                        ADMINISTRATION

                              AUDIT OF CENSUS PERFORMANCE REPORTING
                                FINDS PROBLEMS NOTED AT OTHER

   T
            he
             Economics
                                   BUREAUS
            and Statistics
                                                  We continued our scrutiny of Commerce performance reporting in this semiannual pe-
   Administration analyzes
                                                     riod, this time assessing the measures and data Census provided in support of its
   economic developments,
                                                        three performance goals presented in the Department’s FY 2001 Performance &
   formulates policy options, and
                                                          Accountability Report.
   produces a major share of U.S.
   government economic and demographic
                                                             Our audit revealed the same problems in collecting, verifying, and presenting
   statistics. The Chief Economist monitors
                                                              information that we have often noted in our performance measurement au-
   and analyzes economic developments and
                                                                dits of other bureaus: some measures, collection and verification techniques,
   directs studies that have a bearing on the
                                                                 explanations, and disclosures were inaccurate or inadequate, and the reli-
   formulation of economic policy. ESA has two
                                                                  ability of reported data was thus compromised. At Census, we found that
   principal agencies:
                                                                  the reliability and usefulness of reported information was undercut by (1)
                                                                   imprecise measures and related targets, (2) incorrect descriptions of veri-
   Bureau of the Census is the country’s
                                                                    fication procedures, and (3) conflicting and incomplete disclosures.
   preeminent statistical collection and
   dissemination agency. It publishes a wide variety
                                                                    Imprecise measures and targets. The wording of measures and targets
   of statistical data about the nation’s people and
                                                                   in some instances either inaccurately reflected what was being assessed
   economy, conducting approximately 200 annual
                                                                   or did not capture the full range of activities. For example, the goal 1
   surveys, in addition to the decennial census of
                                                                  measure “percentage of household surveys attaining specified reliability
   the U.S. population and the decennial census of
                                                                  measurements” contained data for two nonhousehold demographic sur-
   industry.
                                                                 veys. Likewise, Census reported having met its targets for goal 2 and goal
                                                                3 measures. In the case of goal 2, the target was different from the measure
   Bureau of Economic Analysis
                                                               in that Census only included in its target the release of decennial census
   prepares, develops, and interprets
                                                              products. Because this was not explained, the reader was left to assume that
   the national income and product
                                                            all three census products mentioned in the measure were included in the target
   accounts (summarized by the
                                                           as well. For goal 3, the target for the MAF/TIGER measure implied that Census
   gross domestic product), as
                                                         would have the plan and systems supporting housing unit coverage of the master
   well as aggregate measures
                                                      address file in place by the end of FY 2002. In fact, the bureau measured and re-
   of international, regional,
                                                  ported its progress only toward developing the plan and identifying the required sys-
   and state economic
                                                tems.
   activity.
                                       Inaccurately described verification procedures. Census’s verification methodology for the
                                  goal 2 measure—comparing actual data dissemination dates against projections—was used for only
                              two of the three products. For the American Community Survey measure under goal 3, Census reported
                        that it verified data by comparing actual product release dates against scheduled completion, but in reality it
                compared actual and projected dates for data collection.

Conflicting and incomplete disclosures. For goal 1, “improving current measures of the U.S. population, economy, and governments,”
explanations for two of the four measures contained inconsistent, noncomparable, and incomplete information. The household response
rate measure explains at one point that Census met the stated target for obtaining response rates “better than 90%.” Later in the text, the
target is reported as a “90 percent or better response rate.” Under the first guideline, the bureau did not fully meet the measure, as the
response rate for the American Housing Survey (AHS) was exactly 90 percent in FY 2001. Under the second guideline—the correct



22                                                                                                 March 2004/Semiannual Report to Congress
                                                                                                    Economics and Statistics Administration




                                     CENSUS GOALS AND RELATED MEASURES

   GOALS                                                                MEASURES

   1. Provide and Improve Current Measures of the U.S.                      ■   Percentage of household surveys attaining
      Population, Economy, and Governments that Meet the                        specified reliability measurements.
      Needs of Policy Makers, Businesses, and the Public.                   ■   Household response rate for Current Population
                                                                                Survey, National Crime Victimization Survey, and
                                                                                American Housing Survey. Response rate for the
                                                                                National Health Interview Survey. Household
                                                                                Response Rate for the Survey of Income and
                                                                                Program Participation.
                                                                            ■   Release data products from Survey of Income
                                                                                and Program Participation (SIPP) and Survey of
                                                                                Program Dynamics (SPD).
                                                                            ■   Release principal economic indicators.

   2. Provide the Statistical Foundation and Benchmark                      ■   Release Decennial Census, Census of Govern-
      Measures of the Population, Economy, and the Gov-                         ments, and Economic Census products.
      ernment that Meet the Needs of Policy Makers, Fed-
      eral, State, and Local Government Agencies, Busi-
      nesses, and the Public.

   3. Reengineer the 2010 Decennial Census to be More                       ■   Implement Master Address File (MAF)/ Topologi-
      Efficient and Cost Effective, Provide Richer Data, Im-                    cally Integrated Geographic Encoding and Refer-
      prove Coverage, and Reduce Risk in Meeting Con-                           encing (TIGER) Modernization.
      stitutional and Legislative Mandates.                                 ■   Implement American Community Survey (ACS).

Source: U.S. Department of Commerce, FY 2001 Performance & Accountability Report


one—it did. The reader, however, had no way of knowing which            FY 1999 is based on two surveys; data for FY 2000 through 2002
target was correct and whether one or both were met.                    is based on only one. Such omissions and inconsistencies under-
                                                                        mine the credibility of reported results because readers do not
Among other things, Census also improperly included response            have full and accurate information with which to assess them.
rates for the American Community Survey (ACS) in its discus-
sion of household response rates; inaccurately reported having          We recommended that the Census Bureau revise measures and
met the target for all surveys in FY 2001—it did not meet that          targets to accurately convey the results it is evaluating; restate
target for the Survey of Income and Program Participation; and          unclear or incorrect results in future Accountability Reports; and
did not provide an FY 2001 or FY 2002 target for this survey,           provide complete explanations of the measures, data, and verifi-
while it did for all others. And finally, the discussion of the re-     cation procedures. We note that the bureau has already taken cor-
lease data products measure under goal 1 suggests that reported         rective actions in response to our findings. (Financial Statements
data is comparable across the years, when in fact it is not. Data for   Audits Division: FSD-15990)




March 2004/Semiannual Report to Congress                                                                                             23
                           INTERNATIONAL TRADE
                           ADMINISTRATION

                                        U.S. EXPORT ASSISTANCE CENTERS


     T
             he                                  The International Trade Administration plays a major role in leading the federal
             International                           government’s efforts to increase U.S. exports. ITA’s U.S. Commercial Service,14 as
             Trade Administration                       the Department’s key export promotion agency, works closely with U.S. businesses
     is responsible for trade promotion and               and federal, state, and local trade partners to promote export awareness, protect
     policy issues associated with most                      U.S. business interests, and increase U.S. sales abroad.
     nonagricultural goods and services. ITA
     works with the Office of the U.S. Trade                     Founded in 1980, the Commercial Service (CS) focuses its assistance pri-
     Representative to coordinate U.S. trade policy.               marily on small and medium-sized businesses that are beginning to ex-
     ITA has four principal units:                                  port or are interested in expanding sales to new export markets. CS also
                                                                         provides assistance to traditionally underserved sectors such as women-
     Market Access and Compliance develops and                            and minority-owned companies and rural concerns. To this end, it
     implements international economic policies of a bilateral,            operates more than 100 U.S. export assistance centers (USEACs),
     multilateral, or regional nature. Its main objectives are to           grouped geographically into 12 networks across the United States.
     obtain market access for American firms and workers and                 Many of the centers bring together federal and nonfederal trade-
     to ensure full compliance by foreign nations with trade                 related agencies into one-stop shops to provide firms with infor-
     agreements signed with the United States.                               mation about various export promotion and financing opportuni-
                                                                              ties. In each network, one USEAC serves as the hub office sup-
     Trade Development advises on international trade and                     porting the activities of several satellite offices.
     investment policies pertaining to U.S. industrial sectors,
     carries out programs to strengthen domestic export com-
     petitiveness, and promotes U.S. industry’s increased
     participation in international markets.
                                                                            SOUND OPERATIONS NOTED
      Import Administration defends American industry                       AT THREE USEACS REVIEWED
     against injurious and unfair trade practices by administer-
     ing the antidumping and countervailing duty laws of the               During this past semiannual period, we evaluated the management,
     United States and enforcing other trade laws and                     program, and financial and administrative operations of three USEAC
     agreements negotiated to address such trade practices.              networks—Chicago, Pacific Northwest, and Philadelphia. We found
                                                                       for the most part that the networks have strong and collaborative rela-
     U.S. and Foreign Commercial Service                             tionships with trade partners; and that network offices and staff are inno-
     promotes the export of U.S. products and
     helps small and medium-sized businesses
     market their goods and services                                The Export Enhancement Act of 1992 directed the Commerce
     abroad. It has 105 domestic                                    Department to take the lead in setting up “one-stop shops,”
     offices and 157 overseas                                       working primarily with the Export-Import Bank and Small
     posts in 84 countries.                                         Business Administration to assist U.S. exporters. The resulting
                                                                    organizations—U.S. Export Assistance Centers—seek to
                                                                    collocate federal, state, and local trade partners, where pos-
                                                                    sible, and provide U.S. exporters with assistance, counseling,
                                                                    and information on all export-related promotion and finance
                                                                    opportunities.


14
     Commercial Service is also known as the U.S. and Foreign Commercial Service.



24                                                                                                   March 2004/Semiannual Report to Congress
                                                                                                          International Trade Administration



vative and highly regarded for their services by clients and part-
ners alike. Financial and administrative functions are generally
well managed, though a few need improvement, as does each
network’s export success reporting. The specific weaknesses we
noted in these areas are detailed below.


CHICAGO

Export Successes Need Better Management Review. We re-
viewed the export success records approved during the period Oc-
tober 1, 2002, to July 9, 2003, and found some that were inaccu-
rately reported or of poor quality: problems ranged from overstated
values (totaling approximately $4.3 million of the $42.1 million
reported for our review period) to poorly demonstrated links be-
tween the assistance rendered and the reported outcome. For these
cases, the network did not comply with Commercial Service’s ex-
port success re-
porting guidelines.
To its credit and to
help eliminate the
                                                                                                    Pacific Northwest USEAC Network
problems we iden-
tified, Commercial
Service has up-
                                                                        USEACs in the network did not report any export successes for
dated its export
                                                                        new-to-export companies—another important CS performance
success reporting
                                                                        measure. We are concerned that some trade specialists may not be
guidance, desig-
                                                                        adequately reaching out to inexperienced exporters, preferring
nated a senior offi-
                                                                        instead to help existing clients and thus more easily reach their
cial to oversee and
                                                                        export success goals.
ensure consistent
application of the
                                                                        User Fees Are Not Consistently Collected and Do Not Recover
revised guidelines,
                                                                        Full Costs. Pacific Northwest USEAC offices do not consistently
and increased
                                                                        charge international buyers for Gold Key USA services provided,
manager and staff
                                                                        nor do their fees appear to fully cover their associated costs. OMB
training.
                            Chicago USEAC Network                       Circular A-25 requires federal agencies to recover the full costs of
                                                                        goods and services they provide to customers when such resources
Lease Payments
                                                                        convey benefits beyond those enjoyed by the general public. The
Are Not Promptly Collected. Commercial Service had failed to
                                                                        Commercial Service’s fee policy conflicts with OMB’s in that it
collect accumulated lease payments totaling $16,088 and dating
                                                                        requires recovery of direct costs only. Further, CS has not consis-
back to 2000 from a nonfederal trade partner collocated in Chi-
                                                                        tently enforced its own fee collection policy—especially for Gold
cago, as well as in Houston and Newport Beach. After we brought
                                                                        Key USA services executed by USEACs—so trade specialists
this issue to its attention, CS invoiced the partner and received
                                                                        sometimes forgo charging clients even for direct costs. ITA has
payment. Commercial Service also initiated action to ensure that
                                                                        requested a waiver from OMB’s full cost recovery requirement,
it consistently tracks, bills for, and collects payments due from its
                                                                        and is awaiting an answer. In the absence of a waiver, we recom-
nonfederal trade partners.
                                                                        mended that Commercial Service take steps to ensure the
                                                                        USEACs—and all CS components—consistently and fully recover
PACIFIC NORTHWEST                                                       their costs. ITA is taking steps to address this recommendation,
                                                                        such as reviewing and analyzing a study on pricing, and develop-
Reported Export Success Values Were Overstated, and Assis-              ing proposals for full cost recovery. We will be following up on
tance to New Exporters Appears Low. Based on a 20 percent               this issue in our upcoming crosscutting report on USEACs.
sample, we concluded that the Pacific Northwest USEAC network
overstated its fiscal year 2003 reported export success values by       Purchase Card Program, Time and Attendance Record Keep-
at least 60 percent ($156 million of the $263 million reported),        ing Need Better Oversight. We found that some purchase
and claimed $6 million of exports that did not occur. Further, three    cardholders exceeded the $2,500 annual per card limit for cell




March 2004/Semiannual Report to Congress                                                                                              25
International Trade Administration




phone services, and some made advance payments for monthly             peat clients, which may lead to the neglect of inexperienced but
recurring cell phone charges, which is prohibited. Also, one           ready-to-export companies.
USEAC office failed to deduct leave to cover 200 hours in ab-
sences taken by an employee, because the employee did not sub-         Inadequate Oversight of Network Travel Has Permitted Ques-
mit leave slips. Appropriate time and attendance adjustments have      tionable Practices and Reimbursements. We identified a num-
been made.                                                             ber of questionable practices, weak internal controls, lack of ac-
                                                                       countability, and potentially unnecessary expenses with regard to
PHILADELPHIA                                                           USEAC staff travel: travel vouchers were sometimes signed by
                                                                       persons other than the traveler and the appropriate authorizing/
Gaps in Leadership Undercut Trade Partner Relations and                approving official; the purpose of some trips was not documented;
Office Operations. We found a number of strong, mutually ben-          voucher information did not match receipts; and rental cars were
eficial working relationships between the Philadelphia USEAC           used excessively. We discovered that CS management did not re-
network and a diverse mix of trade partners at the federal, state,     view the travel vouchers, question the necessity of trips, or deter-
and local levels. However, turnover in the director’s position at      mine whether the chosen mode of transportation was practicable
                                                                       and commensurate with the nature and purpose of the traveler’s
Philadelphia USEAC Network                                             duties.

                                                                       Purchase Card Program Needs Better Oversight. Again, as with
                                                                       the Pacific Northwest network, we found that some Philadelphia
                                                                       purchase cardholders exceeded the $2,500 annual spending limit
                                                                       for cell phone charges, and that some inappropriately prepaid for
                                                                       cell phone service. Further, we could find no evidence that Phila-
                                                                       delphia network employees consistently reviewed their cell phone
                                                                       bills and reimbursed the government for personal calls. We also
                                                                       noted that one cardholder shared the card with another employee
                                                                       and paid sales tax on tax-exempt purchases.


                                                                       AGENCY RESPONSE

                                                                       ITA welcomed the insights provided in the three USEAC reports.
three of the six network offices in recent years has caused office     During the course of our review, the Commercial Service worked
priorities and expectations to shift, and has thus adversely im-       to cooperatively address the issues we identified. It indicated that
pacted long-term planning, services, and collaboration with some       it intends to assess internal controls associated with many of the
trade partners.                                                        management, financial, and administrative matters we raised. ITA
                                                                       also indicated that it intends to strengthen the reporting and verifi-
Export Successes Were Inflated and Client Records Inad-                cation of export successes and other performance data by (1) re-
equately Maintained. As with the other two networks, we found          vising performance measure guidance, (2) ensuring that manage-
Philadelphia’s export success reporting to be overstated. Our re-      ment understands and complies with the new guidance, (3) im-
view of 20 percent of FY 2003 approved successes identified du-        proving training on performance measures, and (4) designating a
plicate export success stories and use of estimated rather than ac-    headquarters senior official to review export success reporting
tual sales, which resulted in a minimum overstatement of $14.46        worldwide. However, the agency did not agree with our finding
million (10 percent) of the network’s $145.13 million export value     that the Pacific Northwest USEAC network had overstated the value
for the year, and an overcount of the number of successes by at        of its reported export successes by $156 million, asserting that the
least 30 (6 percent of the 489 total). Client records were poorly      overstatement totaled only $6 million. We thoroughly evaluated
maintained for several export successes, and often failed to clearly   ITA’s position and provided a discussion in our final report of why
document the USEAC assistance that led to the success. Also, as        we continue to conclude that the overstated amount of the export
with the Pacific Northwest network, we are concerned that              successes we reviewed was $156 million. (Office of Inspections
Philadelphia’s trade specialists may be focusing too much on re-       and Program Evaluations: IPE-16136, 16507, and 16402)




26                                                                                               March 2004/Semiannual Report to Congress
                                       MINORITY BUSINESS
                                       DEVELOPMENT AGENCY
                          MBDA’S NATIVE AMERICAN BUSINESS
                            DEVELOPMENT CENTER PROGRAM

   T
           he
           Minority                   Established in 1982, the Native American Business Development Center (NABDC) program funds
           Business                     a network of centers whose professional business consultants provide one-on-one technical
   Development Agency                     assistance and commercial development services to Native American entrepreneurs. Con-
   was created to help                      sultants assist with business plan formulation, marketing, management, financial planning,
   minority-owned and operated                and a variety of specialized services to help firms secure adequate financing.
   businesses achieve effective and
   equal participation in the                   During this past semiannual period, we audited the California, Northwest, and Arizona
   American free enterprise system,               Indian business development centers, all of which are funded by MBDA cooperative
   and overcome the social and                    agreements with the same Native American nonprofit organization. The recipient has
   economic disadvantages that have                used MBDA funding to operate the California center since 1972, the Arizona center
   limited their participation in the               since 1986, and the Northwest center since 1990. In each case, we performed a finan-
   past. MBDA provides management                   cial and compliance audit of two budget periods—calendar years 2001 and 2002—
   and technical assistance to minority            funded under 3-year cooperative agreements that extended through 2003. We sought
   firms upon request, primarily                   to determine whether the recipient was performing in accordance with award objec-
   through a network of business                  tives; claiming project costs that were reasonable, allowable, and allocable; and main-
   development centers. It also                  taining required administrative, financial, and program controls. We found varying de-
   promotes and coordinates                     grees of noncompliance with MBDA performance guidance and inadequate manage-
   the efforts of other federal                ment controls for ensuring that claimed performance is documented completely and within
   agencies in assisting                      the specified deadline.
   or providing market
   opportunities for
                                         CALIFORNIA CENTER’S PERFORMANCE CLAIMS AND IN-
   minority businesses.
                                       KIND CONTRIBUTIONS NOT SUPPORTED

                                 This project had total estimated costs of $681,477 for the 2-year period covered by our audit, with the
                             federal share not to exceed $575,000. We found that though the recipient generally complied with program
                         and award objectives, its claims for two of four performance measures we considered for 2001—dollar value
                   of transactions and client service hours—were in some instances inaccurate or poorly supported: for the first mea-
           sure we did not accept the recipient’s largest claimed transaction; for the second, we found that the center either was late in
obtaining required documentation for service hours or did not obtain it at all.

The recipient also did not comply with uniform administrative requirements and federal cost principles for in-kind contributions in
either calendar year. We therefore questioned claimed costs of $29,700 and recommended that the MBDA grants officer disallow these
costs, recover the federal share of $25,089, and require the recipient to establish procedures for properly claiming in-kind contributions.
The recipient disagreed with the questioned costs but provided no information to cause us to modify our finding. (Seattle Regional
Office of Audits: STL-15885-4-0003)

DEFICIENCIES AND NONCOMPLIANCE FOUND IN ARIZONA CENTER OPERATIONS

The Arizona center had total estimated costs for the 2-year audit period of $437,142, with the federal share not to exceed $360,000. For
both years, we found the recipient’s performance substantially deficient in that its claims for three critical performance measures—
dollar value of transactions, client service hours, and strategic partnerships—were inaccurate in some instances and inadequately sup-




March 2004/Semiannual Report to Congress                                                                                             27
Minority Business Development Agency




ported in others. We thus determined its overall performance should   Our audit disclosed only minor discrepancies in claimed perfor-
have been rated unsatisfactory (MBDA had rated it satisfactory in     mance for dollar value of transactions in calendar year 2001 along
2001 and good in 2002). We also found that the recipient had          with an inconsistent track record for obtaining required docu-
failed to comply with uniform administrative requirements and         mentation for client service hours. For calendar year 2002, we
federal cost principles, which caused us to question costs of         questioned one claimed strategic partnership, but this would not
$10,425 and recommend repayment to the federal government of          have been significant enough to impact the center’s performance
$8,557. Though the recipient subsequently submitted additional        rating.
documentation for some questioned transactions and revised per-
formance claims downward, neither action changed the findings         Though the recipient substantially complied with uniform admin-
in our audit. (Seattle Office of Audits: STL-15885-4-0001)            istrative requirements and federal cost principles for both budget
                                                                      periods, it could not produce the required support for 2002 in-
NORTHWEST CENTER EXCELS IN                                            kind contributions, which caused us to question $4,385 in claimed
MEETING MBDA PERFORMANCE GOALS                                        costs and recommend the government recover $2,428 in federal
                                                                      funds. As with California, we recommended that the grants of-
This center serves the states of Idaho, Oregon, and Washington.       ficer disallow questioned costs, recover the federal share, and re-
Its total estimated costs for the 2-year period of our audit were     quire the recipient to establish procedures to properly claim in-
$498,367, with the federal share not to exceed $380,000. Its per-     kind contributions. (Seattle Regional Office of Audits: STL-15885-
formance was rated “excellent” by MBDA in both 2001 and 2002.         4-0002)




28                                                                                             March 2004/Semiannual Report to Congress
                          NATIONAL OCEANIC
                          AND ATMOSPHERIC
                          ADMINISTRATION
                                        NOAA CORPS DID NOT FOLLOW SENATE

     T
             he                             CONFIRMATION PROCESS FOR AT LEAST
             National Oceanic
             and Atmospheric                    2 DECADES
     Administration studies climate
     and global change; ensures the protec-            NOAA Corps—the smallest of the seven U.S. uniformed services—consists of
     tion of coastal oceans and the man-                  approximately 260 commissioned officers led by a rear admiral. Established in
     agement of marine resources; provides                  1970, the Corps serves all five NOAA line offices and various other federal
     weather services; and manages worldwide                  agencies.
     environmental data. NOAA does this through the
     following organizations:                                    Like other uniformed services, NOAA Corps is required by statute to
                                                                  obtain Senate confirmation15 for officer appointments and promotions.
     National Weather Service reports the weather of the            However, it came to light in early 2003 that the Corps had been ap-
     United States and provides weather forecasts and                pointing and promoting officers before and in some cases without
     warnings to the general public.                                  ever receiving the requisite approvals. NOAA’s General Counsel
                                                                      examined appointments and promotions made during 1999 through
     National Ocean Service issues nautical charts; performs
                                                                       April 2003, and issued a report on May 1, 2003, that examined the
     geodetic surveys; conducts research; and develops
                                                                       process of appointments and promotions from the mid-1990s on-
     policies on ocean mining and energy.
                                                                       ward. The Department’s Office of General Counsel (OGC) devel-
     National Marine Fisheries Service conducts a program              oped a list of unconfirmed appointments and promotions for the
     of management, research, and services related to the              period of October 1999 through February 2003.
     protection and rational use of living marine resources.
                                                                       Subsequent to these actions, we received House and Senate requests
     National Environmental Satellite, Data, and Informa-             to conduct an independent review of NOAA Corps’ confirmation
     tion Service observes the environment by operating a             process. In summary, we found a culture of management indiffer-
     national satellite system.                                      ence toward statutory and procedural detail at NOAA Corps that dated
                                                                    back to at least the mid-1980s, which is as far back as we went in our
     Office of Oceanic and Atmospheric Research
                                                                   review. Our specific findings are as follows:
     conducts research related to the oceans and inland
     waters, the lower and upper atmosphere, space
     environment, and the Earth.                                  NOAA Corps Has Failed to Consistently Seek and Obtain Senate Con-
                                                                firmation for Appointments and Promotions Since at Least 1986. Thirty-
     Office of Marine and Aviation Operations                  one percent (137 of 435) of original appointments to NOAA Corps between
     operates NOAA’s ships and aircraft and                1986 and 2003 were never confirmed by the Senate. In addition, 65 (24 per-
     provides NOAA programs with                         cent) of 270 appointments were confirmed after the statutory deadline for confir-
     trained technical and management                 mation. The law requires that when the deadline passes, unconfirmed temporary
     personnel from the nation’s                   appointments be terminated.
     seventh uniformed
     service.                              Neither did the Corps obtain proper Senate confirmation for 705 of 938 promotions (75 percent)
                                       made between 1986 and the present. Of that total, 454 were confirmed after promotion to a permanent
                                position had been conferred, and 251 were never confirmed at all.

We found no discernable pattern in the Corps’ timing of nominee submissions for confirmation—sometimes it was within required
deadlines, many times it was not. But we noted several factors that contributed to the Corps’ noncompliance with statutory require-


15
     Including nomination of candidates by the President.




March 2004/Semiannual Report to Congress                                                                                            29
National Oceanic and Atmospheric Administration




     NOAA CORPS PROMOTIONS THAT DID NOT RECEIVE
           SENATE CONFIRMATION (1986–2003)
40
35
30
25
20
                                                                                                     Unconfirmed               Unconfirmed
15                                                                                                   promotions identified     promotions
                                                                                                     by OIG over and           identified by
10                                                                                                   above those identified    Commerce OGC
 5                                                                                                   by Commerce OGC           and certified by
                                                                                                     and certified by the      the NOAA Corps
 0                                                                                                   NOAA Corps
     1986    1988      1990      1992     1994      1996      1998      2000     2002



ments: (1) responsible Corps officials apparently viewed the con-        BETTER DATA QUALITY,
firmation process as pro forma and did not take it seriously; (2) no
internal controls were in place to prevent unconfirmed candidates        PERFORMANCE
from being appointed or promoted to permanent positions and no           MONITORING, AND
operations manual existed to help ensure compliance with the stat-       OUTREACH NEEDED FROM
ute; and (3) neither NOAA management nor the Department pro-
vided the necessary oversight to ensure that the Corps complied          NMFS OBSERVER PROGRAMS
with statutory mandates.
                                                                         In fulfilling its responsibilities for protecting and managing ma-
NOAA Corps Exceeded its Authority for Appointing Tempo-                  rine resources, the National Marine Fisheries Service (NMFS) has
rary Ensigns, Reappointing Former Corps Officers, and Ac-                since the 1970s placed “observers” on fishing vessels to collect
cepting Interservice Transfers. Since 1986, the Corps has ap-            catch and bycatch data, as well as information on marine mam-
pointed 390 new recruits to temporary positions as ensigns with-         mal interactions and a variety of other areas. Over the years, the
out required Secretarial approval; (2) reinstated former Corps of-       practice evolved into a loose network of observer programs de-
ficers at ranks higher than permitted; and (3) allowed officers from     veloped by regional agency components to meet local scientific
other U.S. uniformed services to transfer to the Corps (“interservice    and resource management needs. All but one of the programs uses
transfers”) without the necessary action by the Secretary of Com-        observers supplied by private entities under contract to NMFS.
merce and approval from the President.                                   More than 500 observers are currently deployed in 14 observer
                                                                         programs, most of which are administered through NMFS’ re-
                                                                         gional fisheries science centers (FSCs).
RECOMMENDATIONS AND AGENCY
RESPONSE                                                                 To promote coordination among the programs, NMFS established
                                                                         the National Observer Program Office in 1999 to support their
We made several recommendations designed to establish account-
                                                                         activities and increase their usefulness to the agency’s overall goals.
ability among appropriate officials for ensuring that Corps ap-
pointments and promotions are handled in accordance with statu-
                                                                         We reviewed seven observer programs (see box) to determine
tory requirements and internal regulations and procedures. NOAA
                                                                         whether they are meeting users’ data collection needs, how NMFS
concurred with our recommendations, and in implementing them,
                                                                         ensures data quality, and how well the program’s missions and
will bolster the corrective actions we noted in process at the time
                                                                         objectives are communicated to stakeholders.
of our review: for instance, OGC has been working closely with
the Corps to bring its internal regulations in line with statutory
requirements and develop a procedures manual. In addition, the           FINDINGS AND RECOMMENDATIONS
Department’s Office of Human Resources Management plans to
more actively monitor NOAA Corps’ human resources function,              Best practices for improving data quality should be shared.
review and approve future personnel policies and procedures, and         Many practices at work in individual programs may be applicable
clear all NOAA Corps appointments and promotions. (Office of             to the other observer programs. For example, some programs use
Inspections and Program Evaluations: IPE-16138)                          at-sea communications systems and portable computers to capture
                                                                         and communicate observer data more quickly, efficiently, and ac-
                                                                         curately. Some have added data fraud detection and prevention
                                                                         capabilities to their observer debriefing and data quality assurance




30                                                                                                 March 2004/Semiannual Report to Congress
                                                                                           National Oceanic and Atmospheric Administration




processes. NMFS should explore the feasibility of adopting these
practices nationwide to improve data quality and program efficiency.

Improved oversight is needed to ensure that processes for as-
signing observers to ships result in unbiased, representative
data. Each observer program has a process for placing observers
on vessels that is supposed to ensure collection of a representative
data sample. Most of the programs we reviewed lacked internal
controls to ensure their sampling design was implemented cor-
rectly, and they all had problems that could bias the data. For ex-
ample, in two programs run by the Northeast Science Center, ob-
servers—not the center—are responsible for finding and inform-
ing vessel captains that they are required to take an observer on
board, with the result that some observers repeatedly board those
                                                                       Observer aboard fishing vessel examines catch.
                                                                       Source: North Pacific Fisheries Observer Training Center

               NMFS’ 14 REGIONAL                                       ships that have willingly accepted them in the past, rather than
              OBSERVER PROGRAMS                                        approaching new ships and thus obtaining a more representative
                                                                       sample of data.
         Alaska Regional Office, Juneau, AK
   1. Alaska Marine Mammal                                             NMFS needs to take actions to keep an experienced corps of
               Alaska FSC, Seattle, WA                                 observers. Observer programs worldwide report that maintain-
   2. North Pacific and Bering Sea Groundfish Trawl                    ing a qualified observer corps is key to collecting quality data.
      and Fixed Gear Fishery*                                          But building a qualified corps takes time, as observers learn their
                                                                       duties and adapt to the rigors of a hazardous work environment.
              Northwest FSC, Seattle, WA
                                                                       High turnover rates in NMFS observer programs impede efforts
   3. At-sea Pacific Hake
                                                                       to develop an experienced observer corps, increase training costs,
   4. West Coast Groundfish*
                                                                       and adversely affect data quality and reliability. NMFS is review-
         Pacific Islands FSC, Honolulu, HI                             ing its recruitment practices, a step in the right direction, but needs
   5. Hawaii Swordfish-Tuna Longline                                   to take action to improve retention, perhaps by enhancing training
            Southwest FSC, Long Beach, CA                              and advancement opportunities.
   6. California/Oregon Drift Gillnet
                                                                       Program-wide performance measurement would improve re-
   7. West Coast Pelagic Longline
                                                                       gional accountability. The regional programs we reviewed lacked
          Southeast FSC lab, Galveston, TX                             comprehensive, consistent performance measures, and thus ac-
   8. Southeastern Shrimp Otter Trawl Fishery                          countability for outcomes. Accountability is further compromised
             Southeast FSC, Miami, FL                                  by NMFS’ overall organizational structure for these programs,
   9. Southeastern FSC Pelagic Longline*                               which supports independent regional operations and lacks clear
                                                                       reporting relationships with headquarters. Although creation of
         Southeast FSC lab, Panama City, FL
                                                                       the National Observer Program and a National Observer Program
  10. Southeastern FSC Shark Drift Gillnet
                                                                       Advisory Team improved communications between headquarters
            Northeast FSC, Woods Hole, MA                              and the regions, national priorities and performance measures for
  11. New England Groundfish*                                          observer programs would ensure better regional accountability.
  12. New England and Mid-Atlantic Gillnet Fisheries*                  NMFS needs to develop program-wide performance measures as
  13. Atlantic Sea Scallop Dredge Fishery/Georges                      well as a reporting mechanism to facilitate monitoring, enhance
      Bank*                                                            program outcomes, and ensure accountability for and dissemina-
           Highly Migratory Species Division,                          tion of program results.
                     Silver Spring, MD
  14. Atlantic and Gulf of Mexico Shark Bottom                         NMFS should also restructure contracts with observer providers
      Longline*                                                        to make them performance based and include objective criteria
                                                                       for assessing outcomes, where feasible. The Southeast and North-
  Source: NMFS                                                         east science centers have taken steps to incorporate some perfor-
  *Programs reviewed by OIG.                                           mance-based elements. The remaining centers should do the same.



March 2004/Semiannual Report to Congress                                                                                                31
National Oceanic and Atmospheric Administration




A national outreach strategy is needed to better communicate           Commerce, Defense, and Transportation. The ROC’s fiscal year
the mission and goals of the observer program to industry.             2002 budget was nearly $13 million, half of which was provided
NMFS fisheries management activities have come under increas-          by Commerce.
ing criticism from Congress, agency advisory groups, environ-
mentalists, and the fishing industry in recent years. Some attribute   Our audit of the ROC’s property management records for FY 2002
these problems to NMFS’ failure to share information and effec-        was prompted by (1) weaknesses in NOAA’s accounting for per-
tively interact with public constituents and stakeholders. These       sonal property noted in the Department’s financial statements au-
problems—and the lack of understanding among industry that may         dit, and (2) an anonymous complainant’s charge that the center’s
have resulted—could be at the root of industry antipathy toward        electronic maintenance team was missing equipment worth ap-
the observer program and the reason why some refuse to cooper-         proximately $100,000. Although we were able to confirm that the
ate. NMFS needs to develop a consistent and unified national out-      team had asked staff at radar sites to search for and return any
reach strategy that informs and educates, provides opportunities       equipment left by center technicians, we could not prove or dis-
for personal contacts with fishing industry representatives, and       prove the $100,000 loss of property because the anonymous com-
establishes a forum for stakeholders to voice their concerns about     plainant did not specify what property was missing. We did, how-
the program and be heard.                                              ever, find numerous weaknesses both in the ROC’s and NOAA’s
                                                                       procedures and record keeping for personal property. In addition
AGENCY RESPONSE                                                        to NOAA’s agencywide personal property system, the ROC main-
                                                                       tains its own supplemental property accounting system. Our find-
NMFS and NOAA concurred with our recommendations, but ex-              ings were as follows:
pressed concern about their applicability across all observer pro-
grams. We believe that, regardless of regional or program differ-      Comparison of property records maintained by NOAA and
ences, our recommendations may be generally applicable to all.         the ROC revealed 442 records that did not match. The table
(Office of Inspections and Program Evaluations: IPE-15721)             below shows our comparison of NOAA’s and the ROC’s property
                                                                       databases. The ROC’s property data in its in-house integrated prop-
                                                                       erty management system (IPM) contained 1,699 records, while
                                                                       NOAA’s personal property system (PPS) and its replacement Sun-
$3.6 MILLION DISCREPANCY                                               flower system16 contained 1,399. We found that 442 records ap-
IN NOAA’S ACCOUNTING OF                                                peared in only one or the other database, and that the total acqui-
                                                                       sition cost of the inventory in IPM exceeded that of PPS by nearly
PERSONAL PROPERTY AT                                                   $3.6 million.
RADAR OPERATIONS CENTER
                                                                       In addition, we could only match 51 percent of the total records in
The Radar Operations Center (ROC), a component of NOAA’s               both systems (3,098) by serial number, identified 62 records that
National Weather Service, supports the operation of 166 weather        had no serial numbers and 6 with duplicate numbers, and found
surveillance radars (WSR-88D) deployed by the Departments of           discrepancies in asset valuation for 598 records.


                                                                                      Personal Property Database Differences
  RADAR OPERATIONS CENTER FY 2002
          BUDGET: $12.7M                                                    Records in IPM but not PPS                            371

                                            Transportation                  Records in PPS but not IPM                             71
                                                 26%
                                             ($2,899,900)                   Total unmatched records                               442
                                                                            Net unmatched records (1,699 – 1,399)                 300


   Commerce                                                            Physical inventory confirms data unreliability. During our check
      51%                                            Defense
                                                       23%             of 133 ROC accountable property items shown in IPM, we only
  ($6,479,600)                                                         found 101 items, or 76 percent, at locations noted in the data sys-
                                                   ($3,369,900)
                                                                       tem. We initially could not find the remaining 32 items, but subse-
                                                                       quently determined that 18 of them had been moved to off-site
                                                                       storage or were donated to local schools. We could not determine

                                                                       16
                                                                            The Sunflower system replaced PPS in November 2002.



32                                                                                                March 2004/Semiannual Report to Congress
                                                                                       National Oceanic and Atmospheric Administration




whether the other 14 were lost, stolen, or otherwise disposed of            of a backlog created by the high volume of transactions
because the ROC maintained no supporting documentation.                     from all entities for which MASC inputs data.
                                                                        ■   Property board review of missing items. NOAA’s
Inadequate internal controls over the ROC’s property man-
                                                                            handbook requires property officers to convene a
agement function increase risk of property loss. We found weak-
                                                                            property review board to determine the circumstances of
nesses in the ROC’s internal controls for property management,
                                                                            the loss, theft, or damage of an item. We found that
some of which are noted below, that in some cases reflected inef-
                                                                            NOAA did not follow its own guidelines for appointing
fective departmental or NOAA policies and in other cases, the
                                                                            members of this board.
ROC’s failure to follow appropriate procedures.
     ■ Separation of duties for property purchase, custody, and

       management. NOAA guidance for property-related               RECOMMENDATIONS AND
       duties encourage that they be handled by the property        AGENCY RESPONSE
       custodian, a practice that makes it more difficult to
       readily detect a loss. The ROC gave its property custo-      We made numerous recommendations to resolve the weaknesses
       dian responsibility for procuring, receiving, preparing      we identified, including that the ROC submit accurate inventory
       accounting documents, and certifying annual inventories.     records to NOAA to correct the information currently in the Sun-
                                                                    flower system, and that NOAA record the ROC’s personal prop-
     ■ Physical security. The ROC facilities had no secure
                                                                    erty transactions in a timely manner.
       space for shipping and receiving; one storage facility
       stored unused computers in an area that was fully visible    NOAA generally concurred with our recommendations. (Seattle
       to passers-by. The NOAA handbook requires the property       Office of Audits: STL-15720)
       accountability officer to safeguard items from misuse or
       theft, however neither handbook provides specific
       security guidance.
     ■ Procedures for lending and taking property off-site.

       ROC technicians routinely take center tools and equipment
                                                                    NOAA’S USE OF
       off-site to repair NOAA radars, but in some cases, the       COOPERATIVE AGREEMENTS
       center did not maintain checkout and check-in records for    TO SECURE SUPPORT
       the equipment. One branch kept such records, but did not
       verify the condition or even the actual return of an item
                                                                    SERVICES WAS IMPROPER
       when a user reported bringing it back; one branch did not
                                                                    In April 1998 and again in April 2001, NOAA awarded coopera-
       follow up on the status of equipment and tools that had
                                                                    tive agreements to a nonprofit fisheries research organization that
       been checked out for more than a year. The Department’s
                                                                    together totaled $5.1 million; and in an intervening year—May
       property management manual does not address procedures
                                                                    2000—it entered into a $3 million contract with the same organi-
       for off-site property use. The NOAA handbook only
                                                                    zation. In each case, NOAA sought similar support services. We
       requires property custodians to ensure that loaned items
                                                                    conducted an audit to determine whether the use of both a coop-
       are returned when due; and neither the NOAA handbook
                                                                    erative agreement and a contract for what appeared to be essen-
       nor the handbook of the Mountain Administrative Support
                                                                    tially the same services was appropriate.
       Center (MASC) sufficiently addresses procedures for
       increasing internal controls over an operation, like the
                                                                    Federal law states that a procurement contract, not a cooperative
       center, that routinely uses equipment off-site.
                                                                    agreement, should be used by federal agencies when acquiring prop-
     ■ Documentation of transactions. Both the Department’s
                                                                    erty or services that directly benefit the government. Our audit de-
       manual and the NOAA handbook stipulate how the               termined that the support services NOAA sought under both agree-
       receipt of personal property must be documented.             ments directly benefited its own in-house research. Further, we
       However, the ROC did not provide the required docu-          observed that NOAA appeared to treat the organization’s workers
       mentation, but simply noted the date of receipt on the       as federal employees during the performance of both agreements.
       item’s purchase order.                                       For example, NOAA managers directed the work of organization
     ■ Recording changes in PPS. The Department’s manual            staff, and recommended them for monetary awards, raises, and
       requires that additions, transfers, and removals of          promotions. NOAA officials reported that the May 2000 contract
       accountable personal property be noted in PPS in a           was similarly managed. We cautioned NOAA to take the neces-
       timely manner. Only staff from NOAA’s MASC and               sary steps to (1) ensure the use of appropriate funding instruments
       Finance and Administration office can make such entries.     for all services provided by outside sources, and (2) administer all
       The average lag time for entry of the ROC’s property         such arrangements in a manner that avoids any appearance of a
       transactions in FY 2002 was 98 days, reportedly because      personal services contract. (Seattle Office of Audits: STL-15753)



March 2004/Semiannual Report to Congress                                                                                          33
National Oceanic and Atmospheric Administration




                                                                   The risk assessment and audit plan was designed to enable UCAR
  The nonprofit University Corporation for Atmospheric             to establish a continual process for gauging the vulnerability of
  Research was formed in 1959 by a consortium of re-               44 business functions that are critical to its sound administrative
  search universities that have doctoral programs in the           and financial performance. The OIGs reviewed the plan and its
  atmospheric and related sciences. UCAR operates the              implementation to determine whether it (1) provided assurance
  National Center for Atmospheric Research—a federally             that UCAR was adequately managing federal programs and dol-
  funded research and development center sponsored                 lars, and (2) can be used as a model for other organizations oper-
  and primarily funded by NSF. Commerce (through                   ating federally funded research centers.
  NOAA), the Federal Aviation Administration, and NASA
  also contribute significant funding.                             We jointly determined that the plan did not fully address UCAR’s
                                                                   risks related to managing federal awards. Consequently, it does
                                                                   not assure the adequacy of UCAR’s federal grants management
NONREPORT ACTIVITY                                                 capabilities. Further, the plan does not develop a management struc-
                                                                   ture necessary to implement the assessment process or to fully act
                                                                   on its results.
NATIONAL SCIENCE FOUNDATION AND
COMMERCE OIGS CONDUCT JOINT
                                                                   The plan’s primary benefit was that it raised awareness of risk
AUDIT SURVEY OF NONPROFIT’S RISK
                                                                   management throughout UCAR, prioritized the risks facing the
ASSESSMENT
                                                                   organization, and determined the likelihood and impact of their
                                                                   occurrence.
The National Science Foundation (NSF) and Commerce OIGs
collaborated in reviewing the Internal Audit Risk Assessment &
                                                                   UCAR reviewed our survey findings, to which it responded that
Audit Plan Development prepared by nonfederal auditors for the
                                                                   risk assessment is an ongoing activity for the organization. UCAR
University Corporation for Atmospheric Research (UCAR)—a
                                                                   noted that it intends to conduct another assessment within the next
nonprofit firm that operates a federally funded research and de-
                                                                   18 months and will use the audit survey to help shape and im-
velopment center, predominately with NSF funding. Commerce’s
                                                                   prove this next one.
National Oceanic and Atmospheric Administration is UCAR’s
second largest federal contributor.




34                                                                                          March 2004/Semiannual Report to Congress
                        TECHNOLOGY
                        ADMINISTRATION

                                    UNDOCUMENTED PATENT LICENSE

  T
          he                               AGREEMENT PROCESS MAY LEAVE
          Technology
          Administration                       INTERESTS OF NIST UNPROTECTED
  serves the needs of technology-based
  industry, advocates federal actions and             In March 2003, the National Institute of Standards and Technology asked OIG to
  policies to speed the transfer of technology           audit a license agreement between itself and a private sector firm. The original
  from the laboratory to the marketplace, and              agreement had been negotiated in 1988 by the National Technical Informa-
  removes barriers for commercializing new                    tion Service—which at the time had authority to negotiate and administer
  technologies. It includes three major organizations:          all such agreements on behalf of the federal government. NIST assumed
                                                                 responsibility for its own agreements in 1995.
  Office of Technology Policy works to raise national
  awareness of the competitive challenge, promotes                  We initiated a two-part review: first looking at NIST’s patent licens-
  industry/government/ university partnerships, fosters              ing agreement process to understand how the agency manages these
  quick commercialization of research results, promotes               agreements and to assess its internal controls on the process; then
  dedication to quality, increases industry’s access to and            looking at the specific agreement and associated records. We de-
  participation in foreign research and development, and                tailed our findings regarding the agreement in a July 2003 memo
  encourages adoption of global standards.                               to NIST officials, and in a full report, presented the following
                                                                          findings regarding the overall process:
  National Institute of Standards and Technology
  promotes U.S. economic growth by working to develop                   Key steps in the patent licensing process are not documented.
  and apply technology, measurements, and standards.                    Although NIST’s administrative manual provides written guid-
  NIST manages four programs: the Advanced Technology                   ance for issuing patent license agreements, there are no written
  Program, the Manufacturing Extension Partnership                     policies and procedures to explain how the agreements are to be
  program, the Baldridge National Quality Program,                     monitored once they have been negotiated and signed. As a result,
  and NIST Laboratories.                                              there is a general lack of understanding of and accountability for
                                                                     the monitoring process among NIST personnel, and thus no assur-
  National Technical Information Service is a                       ance that licensees are complying with an agreement’s terms and
  self-supporting agency that promotes the                         conditions or that patented technology is being protected.
  nation’s economic growth and job creation
  by providing access to information that                      Reporting requirements are not met by licensees or enforced by
  stimulates innovation and discovery. NTIS                   NIST.  In the case of the specific agreement at issue, we found instances
  accomplishes this mission through                         in which  the company was late in remitting required royalty and mainte-
  information collection and dissemination               nance  payments,  submitted incomplete and untimely activity reports, and some-
  to the public and through information              times   submitted  no reports at all. Yet NIST officials did not contact the licensee
  and production services to                      in a timely  manner   regarding missing payments, information, or reports. We found
  federal agencies.                            evidence   of these problems  with  other agreements in the files we reviewed, and noted
                                           that NIST officials do not routinely read submitted reports and are therefore unaware of
                                        any inadequacies or the need for follow-up.

                                 License agreement language undermines NIST’s oversight authority. We found that the standard
                        terms and conditions in license agreements lack specificity and hinder NIST’s ability to oversee licensee compli-
ance and collect proper fees. For example, the agreement that prompted the complaint requires the licensee to file semiannual reports
detailing product development, sales information, and maintenance and royalty fees due, and to submit these payments with the reports.
However, there is no requirement that the licensee certify the report’s accuracy—a key step in establishing accountability. In addition,
the licensee has the right to approve NIST’s choice of accountants to inspect report- and payment-related records, and need only retain




March 2004/Semiannual Report to Congress                                                                                            35
Technology Administration




such records for 2 years. We noted that NIST could have changed       As a result, we recommended that NIST disallow the questioned
these terms, which were part of the original 1988 agreement, when     amount and recover $746,181 in excess federal disbursements.
it modified the agreement in 1997.                                    (Denver Regional Office of Audits: DEN-16157)

RECOMMENDATIONS

To address the deficiencies we identified in the licensing agree-     AUDIT OF NTIS’ FY 2003
ment process, we recommended that NIST                                FINANCIAL STATEMENTS
    ■   develop and document formal policies and procedures
        that outline the purpose, objectives, roles, responsibili-    NTIS’ track record of strong financial management continued in
        ties, and key milestones for the patent license agreement     FY 2003, as the agency again received an unqualified opinion on
        process;                                                      its financial statements, showed no material weaknesses, and fully
    ■   review and update, as necessary, the standard clauses in      complied with related financial management laws and regulations.
        its license agreement template to ensure full protection of
        NIST and inventor interests;                                  ASSESSMENT OF IT CONTROLS
    ■   when modifying existing patent license agreements,
                                                                      The related assessment of information technology controls sup-
        examine the entire document to ensure that the interests
                                                                      porting NTIS’ financial management systems found that the agency
        of both NIST and the inventor are protected throughout,
                                                                      had fully resolved 12 of 14 weaknesses identified in FY 2002,
        and revise any portions that do not do so.
                                                                      while 2 remained open. These were in areas of security planning
                                                                      and change control. The auditors also identified a new weakness
NIST officials concurred with our recommendations and are tak-
                                                                      in access controls as well as one in service continuity. (Financial
ing action to implement them. (Office of Audits: STD-16009)
                                                                      Statements and Audits Division: FSD-16073 and 16074)



QUESTIONED COSTS OF                                                   AUDITS UNRESOLVED FOR
$852,869 RESULT FROM                                                  MORE THAN 6 MONTHS
GRANTEE’S INADEQUATE
FINANCIAL MANAGEMENT                                                  MASSACHUSETTS MEP
SYSTEMS
                                                                      Our September 2003 Semiannual Report (page 34) detailed our
In September 2001, NIST awarded a $2 million ATP coopera-             audit of the costs claimed by a nonprofit recipient under an MEP
tive agreement to a Utah firm for development of a prototype          cooperative agreement for the period of March 17, 2000, through
digital electric motor to increase the efficiency and range of ve-    June 30, 2001. We recommended that NIST disallow questioned
hicles powered by electricity. Total costs for the 2-year project     costs of $8,177,606, recover the federal share of $1,599,349, and
are $2.6 million, with the federal share not to exceed $1,999,447     require the recipient to implement improvements to its financial
of eligible costs. As of March 31, 2003, the recipient had claimed    reporting system.
project costs of $1,873,678 and requested reimbursement of
$1,683,080.                                                           We are currently reviewing the audit resolution proposal submit-
                                                                      ted by NIST.
Our interim financial and compliance audit of the project’s initial
18 months (October 2001 through March 2003) found that the            TEXAS MEP
recipient’s accounting and financial management system failed to
meet federal requirements in that it could not provide details of     Also in our September 2003 issue (page 34) we reported the find-
project expenditures by line item or document claimed costs. We       ings of our interim audit of an MEP cooperative agreement with a
were only able to verify salaries and a portion of fringe benefit     Texas engineering service that is a component of a state univer-
costs from records provided by the recipient’s payroll processing     sity. We recommended that NIST (1) disallow the questioned costs
contractor, totaling $1,020,809, and therefore questioned the re-     of $1,954,279 and seek recovery of the resulting $771,555 in ex-
maining claims for $852,869.                                          cess federal disbursements; (2) require the recipient to adjust sub-




36                                                                                             March 2004/Semiannual Report to Congress
                                                                                                              Technology Administration




sequent financial reports to eliminate these questionable items,      APELON, INC., CONNECTICUT
and (3) direct the recipient to prepare financial analyses by award
budget categories and obtain required approvals for award budget      An OIG desk review of this NIST ATP program-specific audit
deviations. Implementation of our recommendations will result         (September 2003 issue, page 55) questioned a total of $25,417,
in $3,360,000 in funds being put to better use during the remain-     based on the recipient exceeding a line-item budget allowance
der of the cooperative agreement.                                     without approval from the NIST grants officer. In addition, we
                                                                      found that the recipient received excess funds from NIST amount-
We are currently evaluating NIST’s audit resolution proposal.         ing to $36,928, and identified these as funds to be put to better
                                                                      use. We are engaged in ongoing discussions with the recipient,
                                                                      the auditor, and NIST to resolve the audit.




March 2004/Semiannual Report to Congress                                                                                         37
                   UNITED STATES PATENT AND
                   TRADEMARK OFFICE

                        AUDIT OF USPTO’S FY 2003 FINANCIAL
                          STATEMENTS

 T
         he
         United                    USPTO received an unqualified opinion on its FY 2003 financial statements—the 11th consecu-
         States Patent              tive year for this accomplishment. The audit determined the agency’s internal control over
 and Trademark Office                 financial reporting was free of defect and in full compliance with laws and regulations.
 administers the nation’s
 patent and trademark laws.
                                         ASSESSMENT OF IT CONTROLS
 Patents are granted and
 trademarks registered under a
                                          The auditors reviewed USPTO’s IT controls against the six criteria outlined in GAO’s
 system intended to provide
                                           Federal Information System Controls Audit Manual (FISCAM)—entitywide security pro-
 incentives to invent, invest in
                                           gram planning and management; access controls; application software development and
 research, commercialize new
                                           change control; system software; segregation of duties; and service continuity. USPTO
 technology, and draw attention
                                           had fully resolved 10 of 11 weaknesses identified in last year’s audit. The remaining
 to inventions that would
                                           weakness is in the area of service continuity. The FY 2003 audit reported four deficien-
 otherwise go unnoticed.
                                          cies in access control and five in entitywide security program planning and management.
 USPTO also collects,
                                          (Financial Statements and Audits Division: FSD-16075 and 16076)
 assembles, publishes, and
 disseminates technological
 information disclosed
 in patents.




38                                                                                        March 2004/Semiannual Report to Congress
                         DEPARTMENT-WIDE
                         MANAGEMENT

                                       AUDIT OF DEPARTMENT’S FY 2003
                                         CONSOLIDATED FINANCIAL STATEMENTS

      T
              he
              United States                             The Department received an unqualified opinion on its consolidated statements for
              Department of                               FY 2003 and resolved many of the weaknesses reported in the FY 2002 audit: last
      Commerce promotes job                                 year, the independent auditors noted problems in the Department’s internal con-
      creation and improved living                            trol over financial reporting that together constituted a material weakness: (1)
      standards for all Americans by                             general IT controls were deficient in all six FISCAM areas; (2) automated
      creating infrastructure that fosters                         budgetary controls were not in place on legacy systems operated by NOAA
      economic growth, technological                                and NIST; and (3) Commerce still did not comply with OMB’s require-
      competitiveness, and sustainable                                ment for a single, integrated financial management system. This year,
      growth. The Department has three                                 the auditors noted significant progress in these three areas and deter-
      strategic goals:                                                  mined that remaining deficiencies—though still constituting a report-
                                                                         able condition17 —were not serious enough to be considered a mate-
      Goal 1: Provide for information and                                 rial weakness.
      the framework to enable the economy to
      operate efficiently and equitably.                                      IT controls. The auditors found IT controls in all six FISCAM
                                                                               areas had improved, but noted lingering weaknesses throughout
      Goal 2: Provide infrastructure for                                       the Department in entitywide security, and deficiencies at select
      innovation to enhance American                                           bureaus in the following areas: access controls, application soft-
      competitiveness.                                                        ware development and change control, system software, segrega-
                                                                              tion of duties, and service continuity.
      Goal 3: Observe and manage the
      Earth’s environment to promote                                         Automated budgetary controls. Lack of these controls was noted
      sustainable growth.                                                   at both NOAA and NIST last year. In FY 2003, NOAA used CAMS
                                                                           as its system of record, and CAMS provides automated budgetary
      The Department has also established                                 controls. NIST implemented CAMS at the beginning of FY 2004 and
      a Management Integration Goal that                                 thus can utilize the automated budgetary control feature for FY 2004.
      is equally important to all bureaus:
      Strengthen management                                          Integrated financial management. NOAA and NIST were also respon-
      at all levels.                                               sible for the Department’s FY 2002 noncompliance with OMB’s require-
                                                                 ment for a single, integrated financial management system. NOAA and the
                                                               one bureau whose financial transactions it processes account for 59 percent of
                                                            the Department’s consolidated assets. NIST and the bureaus it processes account
                                                         for 13 percent. With NOAA’s conversion to CAMS, the Department became substan-
                                                     tially compliant with the OMB requirement.

                                           FY 2002 reportable condition. Commerce also resolved the FY 2002 reportable condition
                                       pertaining to NOAA’s personal property accounting. While the auditors noted some minor remain-
                                ing issues, they found that NOAA had either fully rectified or substantially improved processes for han-



17
  Material weaknesses are serious flaws in the design or operation of an internal control component that increase the risk that errors, fraud, or noncom-
pliance in material amounts may occur and not be readily detected. Reportable conditions are significant deficiencies in the design or operation of an
internal control component that could adversely affect the organization’s ability to record, process, summarize, and report financial statement data.




March 2004/Semiannual Report to Congress                                                                                                           39
Department-Wide Management




dling construction work in progress, procedures for reconciling        On January 1, 2004, we implemented new policies and proce-
personal property balances with the general ledger, and controls       dures for our preaward screening process. OIG and the Depart-
over accounting for personal property leases.                          ment determined that there are several categories of recipients for
                                                                       whom the costs and administrative burden of the screening pro-
COMPLIANCE WITH LAWS AND                                               cess may well outweigh the government’s risk of financial loss.
REGULATIONS                                                            Our new policies exempt from review recipients who (1) receive
                                                                       awards in amounts of $100,000 or less; (2) have received finan-
Compliance testing of the Department’s financial management            cial assistance from the Department for 3 or more consecutive
procedures and systems showed improvement in one area and re-          years without any adverse program or audit findings; or (3) are
maining deficiencies in two others:                                    units of a state or local government.

Federal Financial Management Improvement Act (FFMIA)                   During this period we screened 347 proposed awards. For 41 of
of 1996. Because the auditors determined that a material weak-         the awards, we found major deficiencies that could affect the abil-
ness in internal control over financial reporting no longer existed,   ity of the prospective recipients to maintain proper control over
the Department for the first time had no instances in which its        federal funds. On the basis of the information we provided, the
financial management systems did not substantially comply with         Department delayed 16 awards and established special award con-
FFMIA.                                                                 ditions for 25 awards. (Office of Audits)

OMB Circular A-11, Preparation, Submission, and Execution              PREAWARD SCREENING RESULTS
of Budget. The Department was noncompliant with the circular
on two counts: (1) as in prior years, NOAA did not fully fund                                                  Award
capital leases, which means that its FY 2002 budget did not allow       Results                                Number        Amount
for sufficient funding to cover present value for capital lease pay-
ments and purchases; (2) NIST’s legacy accounting system did            Awards delayed to resolve concerns        16       $14,232,050
not include budgetary control features to prevent the overobligation
of funds. (As noted earlier, NIST implemented CAMS at the be-           Special award conditions established      25       $27,521,389
ginning of FY 2004 and therefore now has such budgetary con-
trols.)

OMB Circular A-25, User Charges. Also as in prior years, ITA           NONFEDERAL AUDIT
did not recover the full cost of the goods and services it provided
to customers. (See discussion of ITA user fee issue on page 25.)       ACTIVITIES
(Financial Statements and Audits Division: FSD-16071 and 16072)
                                                                       In addition to undergoing OIG-performed audits, certain recipi-
                                                                       ents of Commerce financial assistance are periodically examined
                                                                       by state and local government auditors and by independent public
                                                                       accountants. OMB Circular A-133, Audits of States, Local Gov-
PREAWARD FINANCIAL                                                     ernments, and Non-Profit Organizations, sets forth the audit re-
ASSISTANCE SCREENING                                                   quirements for most of these audits. For-profit organizations that
                                                                       receive Advanced Technology Program funds from NIST are au-
As part of our ongoing emphasis on prevention of fraud, waste,         dited in accordance with Government Auditing Standards and NIST
and abuse, we continue to work with the Office of Acquisition          Program-Specific Audit Guidelines for ATP Cooperative Agree-
Management, NOAA and NIST grant offices, and EDA program               ments, issued by the Department.
offices to screen the Department’s proposed grants and coopera-
tive agreements before they are awarded. Our screening serves          We examined 216 audit reports during this semiannual period to
two functions: it provides information on whether the applicant        determine whether they contained any audit findings related to
has unresolved audit findings and recommendations on earlier           Department programs. For 151 of these reports the Department
awards, and it identifies any negative financial or investigative      acts as oversight agency and monitors the audited entity’s compli-
history on individuals or organizations connected with a proposed      ance with OMB Circular A-133 or NIST’s program-specific re-
award.                                                                 porting requirements. The other 65 reports are from entities for




40                                                                                              March 2004/Semiannual Report to Congress
                                                                                                         Department-Wide Management




which other federal agencies have oversight responsibility. We     The following table shows a breakdown, by bureau, of the nearly
identified 28 reports with findings related to the Department of   $389 million in Commerce funds audited.
Commerce.
                                                                      Bureau                                                    Funds
                                             ATP
                                 OMB       Program-                   EDA                                              $71,869,630
                                 A-133      Specific
 Report Category                 Audits     Audits       Total        MBDA                                                    346,307

 Pending (October 1, 2003)         24          59          83         NIST*                                            194,352,078

 Received                         120          91         211         NOAA                                              16,863,007

 Examined                         127          89         216         NTIA                                                   1,174,676

 Pending (March 31, 2004)          17          61          78         Multiagency                                      103,916,293
                                                                      Agency not identified                                   156,704

                                                                      Total                                           $388,678,695
                                                                   * Includes $168,214,873 in ATP program-specific audits.

                                                                   We identified a total of $5,973,883 in questioned costs and
                                                                   $4,275,037 in funds to be put to better use. In most reports the
                                                                   subject programs were not considered major programs; thus the
                                                                   audits involved limited transaction and compliance testing against
                                                                   laws, regulations, and grant terms and conditions. The 28 reports
                                                                   with Commerce findings are listed in Appendix B-1. (Atlanta and
                                                                   Denver Regional Offices of Audits)




March 2004/Semiannual Report to Congress                                                                                            41
                                 OFFICE OF
                                 INSPECTOR GENERAL

                               OIG AUDIT OPERATIONS RECEIVE HIGH MARKS
                                 FOR COMPLIANCE WITH STANDARDS

   T
           he
           mission of the                   Every 3 years the quality controls over our audit function are evaluated by a colleague OIG
           Office of                           to determine whether they ensure that our work products conform with audit standards
   Inspector General is to                       issued by the Comptroller General of the United States. We in turn review the quality
   promote economy, efficiency,                    control system of one of our peers.
   and effectiveness and detect and
   prevent waste, fraud, abuse, and                   During this semiannual period, the Federal Deposit Insurance Corporation’s OIG
   mismanagement in the programs and                   conducted such a review of our Office of Audits, giving its quality control system
   operations of the U.S. Department of                 an unqualified opinion—the highest rating possible.
   Commerce. Through its audits,
   inspections, performance evaluations,                 In forming its opinion, the FDIC team reviewed a number of completed per-
   and investigations, OIG proposes                      formance and financial assistance audit reports, our financial statements audit
   innovative ideas and constructive solutions            and monitoring activities, and operations at our headquarters and regional
   that lead to positive changes for the                  offices.
   Department. By providing timely, useful,
   and reliable information and advice to                OIG CONDUCTS QUALITY CONTROL REVIEW OF
   departmental officials, the administration,           USAID OFFICE OF INSPECTOR GENERAL
   and Congress, OIG’s work helps
   improve Commerce management and                      Our quality control review of the U.S. Agency for International Development’s
   operations as well as its delivery of              OIG, also conducted during this past reporting period, found that office’s audit
   services to the public.                           work and operations in material compliance with professional auditing standards
                                                  as well, and deserving of an unqualified opinion. We based our findings on an evalu-
                                                ation of audits (performance and financial) performed by both OIG and contract audi-
                                             tors, as well as the office’s financial statements audit and monitoring activities. We as-
                                           sessed operations at the OIG’s headquarters and two overseas offices. (Office of Audits:
                                          DEN-16303)




                                               HIGHLIGHTS OF OIG INVESTIGATIONS
                                               OFFICE OF INVESTIGATIONS

                                               The Office of Investigations (OI) consists of criminal investigators and technical support
                                               personnel deployed at various Commerce OIG locations. OI criminal investigators in-
vestigate allegations of misconduct by employees, contractors, or grantees that may involve fraud, waste, abuse, or mismanagement in
the programs or operations of the Department. These investigations may result in criminal, civil, or administrative sanctions against
violators of federal law, Department regulations, or employee standards of conduct.

On December 8, 2003, the provisions of the Homeland Security Act of 2002 became fully effective and thus invested OI criminal
investigators with statutory law enforcement authority. Our investigators now have independent authority to carry firearms, make ar-
rests, and execute search warrants.




42                                                                                             March 2004/Semiannual Report to Congress
                                                                                                                 Office of Inspector General




During the first half of fiscal year 2004, OI established an investi-   matters that might create even the appearance of impropriety. In
gative presence in Seattle, Washington, and Arlington, Virginia.        addition, the agency was directed to ensure that its regional offi-
These offices have already produced significant investigative re-       cials were made aware of the terms of the official’s recusal, and
sults and are expected to further expand their results and extend       are notified of all relevant disqualifications of headquarters offi-
their reach.                                                            cials. (Washington Field Office)

OI has initiated an aggressive program to police the criminal mis-      RLF ADMINISTRATORS PLEAD GUILTY TO
use of Department of Commerce computer and information tech-            ILLEGAL DIVERSION OF EDA GRANT
nology resources. The rapid pace of change in IT equipment and          FUNDS
applications constantly creates new vulnerabilities in departmen-
tal resources and an extremely challenging environment for law          In our March 2003 Semiannual Report (page 39), we reported
enforcement professionals in the areas of securing, retrieving, seiz-   that four local officials in Massachusetts were indicted for misuse
ing, and examining evidence stored on computer systems.                 of EDA and other federal grant funds administered by a munici-
                                                                        pal economic development organization. Among other things, the
SIGNIFICANT INVESTIGATIVE                                               organization operated an EDA-funded revolving loan fund and a
ACTIVITIES DURING THIS                                                  Small Business Administration loan program. The organization
SEMIANNUAL PERIOD                                                       had been established to administer a low-interest loan fund to pro-
                                                                        mote additional capital investment and job creation in the munici-
This section details some of the outcomes of investigations and         pality. On March 22, 2004, two of the four administrators pleaded
resulting legal proceedings that occurred during this past semian-      guilty in U.S. District Court for the District of Massachusetts to
nual period. These reflect a variety of cases—employee theft and        multiple counts of the indictment, including program fraud, con-
fraud, use of government equipment to access child pornography,         spiracy, and money laundering. Sentencing is scheduled for June
violations of departmental standards of conduct, to name a few—         and July 2004. Trial for the remaining two defendants commenced
as well as examples of our successful collaboration with Com-           in March 2004. (Washington Field Office)
merce officials, operating units, and law enforcement agencies to
ensure the integrity of Commerce programs and operations, pro-          OFFICE OF THE SECRETARY TIMEKEEPER
tect Commerce personnel, and facilitate administrative remedies.        INDICTED FOR CLAIMING AND
                                                                        RECEIVING UNEARNED OVERTIME PAY
SENIOR OFFICIAL’S ACTIONS CREATED
THE APPEARANCE OF CONFLICT OF                                           In our September 2003 Semiannual Report (page 44) we reported
INTEREST                                                                the results of our investigation into alleged fraud by a timekeeper
                                                                        in the Office of the Secretary (O/S): the employee was arrested
OIG investigated allegations that a senior departmental official        after we determined that she had obtained approximately $3,300
had improperly used his position to direct a $1.4 million grant to      by claiming overtime hours she never worked. In January 2004,
fund a major business and technology development project at a           she was indicted in the Superior Court for the District of Colum-
university located in his hometown. The purported motive was to         bia on one felony count of theft and one felony count of fraud.
enhance his position as a candidate for the university’s presidency,    Trial is scheduled for May 2004. As a result of this investigation,
as the funds allegedly provided personal benefit to a selection         O/S issued a new time and attendance policy that requires addi-
committee member who sponsored the official’s nomination.               tional supervisory review to prevent similar future misconduct.
                                                                        (Washington Field Office)
Our investigation disclosed no evidence that the official had used
his position to facilitate or otherwise affect the award of the grant   PHONY PAYROLL ACCOUNT RESULTS IN
to the university. However, he did sign letters announcing the grant    INDICTMENT OF FORMER CENSUS
award to the university president and to other interested parties, in   ASSISTANT FIELD MANAGER
violation of his previous recusal from matters involving his home-
town. He also authorized the presidential search committee to           An OIG investigation disclosed that a former Census assistant field
consider his candidacy shortly after the grant was awarded. These       manager had created a payroll account in the name of another
activities created the appearance of a conflict of interest in viola-   former employee and had $12,268 in paychecks to the employee
tion of the Standards of Ethical Conduct.                               sent to her own post office box. The manager forged endorse-
                                                                        ments on the checks and deposited them into her personal bank
As a result of our investigation, the official was instructed by the    account. In February 2004, the former assistant manager was in-
Deputy Secretary to meet with the Department’s ethics counsel to        dicted for theft in U.S. District Court for the Western District of
review his responsibilities under the Standards of Conduct to avoid     Michigan. (Arlington Resident Office)



March 2004/Semiannual Report to Congress                                                                                              43
Office of Inspector General




FORMER CENSUS PAYROLL SUPERVISOR                                          ing the outcome of our investigation, which is ongoing. He subse-
SENTENCED FOR ISSUING AND CASHING                                         quently resigned from federal service. (Washington Field Office)
FRAUDULENT PAYCHECKS
                                                                          USPTO EMPLOYEE TERMINATED
As reported in our September 2003 Semiannual Report (page 44),
                                                                          FOLLOWING FRAUD CONVICTION
a former Census payroll supervisor pleaded guilty to one count of
theft of government property in U.S. District Court for the Middle
                                                                          Our September 2003 issue (page 44) detailed an OIG investiga-
District of North Carolina, after an OIG investigation disclosed
                                                                          tion that resulted in the conviction of a former USPTO employee
that she had issued fraudulent paychecks in the names of other
                                                                          for fraudulent use of a fellow employee’s social security number
former Census employees and deposited them into bank accounts
                                                                          to illegally obtain several credit cards. In October 2003, the indi-
belonging to her and her husband. In December 2003, she was
                                                                          vidual was officially terminated from his position at USPTO. (Sil-
sentenced to 36 months’ probation, a $1,100 fine, and ordered to
                                                                          ver Spring Resident Office)
make restitution to the Department in the amount of $1,617. (Sil-
ver Spring Resident Office)
                                                                                   INVESTIGATIVE STATISTICAL
FORMER INTERN INDICTED FOR                                                         HIGHLIGHTS FOR THIS PERIOD
THREATENING NOAA EMPLOYEE
                                                                            Criminal Investigative Activities
A former NOAA intern was indicted in U.S. District Court for the
District of South Carolina on one count of interstate communica-            Arrests                                                       1
tion of a threat, after a joint OIG-FBI investigation disclosed that he
had sent an e-mail from Virginia to a NOAA employee in South                Indictments and informations                                  3
Carolina, in which he threatened the employee with bodily harm.             Convictions                                                   2
The former intern contended that he sent the threatening message
because the NOAA employee had treated him abusively and was                 Personnel actions                                             6
responsible for termination of the internship. (Atlanta Field Office)
                                                                            Fines, restitutions, judgments, and
                                                                            other civil and administrative recoveries               $2,803
NIST SCIENTIST RESIGNS AMID
CHARGES OF ACCESSING                                                        Allegations Processed
PORNOGRAPHY ON GOVERNMENT
COMPUTERS
                                                                            Accepted for investigation                                  31
Computer forensics were key to our investigation into allegations           Referred to operating units                                 55
that a NIST research scientist had used government computers to
access child pornography. The employee admitted misusing gov-               Evaluated but not accepted for investigation or referral    11
ernment equipment, but denied accessing child pornography. He
                                                                            TOTAL                                                       97
was immediately placed on administrative leave by NIST, pend-




44                                                                                                 March 2004/Semiannual Report to Congress
TABLES AND STATISTICS

STATISTICAL OVERVIEW
  TABLES                                                                                                                                                                           PAGE


  1. Audit Resolution Follow-Up ....................................................................................................................................................... 45

  2. Audit and Inspection Statistical Highlights for this Period ......................................................................................................... 46

  3. Audits with Questioned Costs ..................................................................................................................................................... 46

  4. Audits with Recommendations that Funds Be Put to Better Use ................................................................................................ 47

  APPENDIXES


  A. Report Types this Period ............................................................................................................................................................ 47

        A-1. Performance Audits ......................................................................................................................................................... 48

        A-2. Financial Assistance Audits ............................................................................................................................................ 49

        A-3. Financial Statements Audits ............................................................................................................................................ 50

        A-4. Inspections and Systems Evaluations .............................................................................................................................. 51

  B. Processed Audit Reports ............................................................................................................................................................ 52

        B-1. Processed Reports with Audit Findings ........................................................................................................................... 53



AUDIT RESOLUTION AND                                                                              TABLE 1. AUDIT RESOLUTION FOLLOW-UP
FOLLOW-UP
                                                                                                      Report Category                       Modifications                    Appeals
The Inspector General Act Amendments of 1988 require us to
present in this report those audits issued before the beginning of
the reporting period (October 1, 2003) for which no management                                        Actions pending
decision had been made by the end of the period (March 31, 2004).                                     (October 1, 2003)                               0                          21
Three NIST audit reports remain unresolved for this reporting
period (see page 45).                                                                                 Submissions                                     0                           4

Department Administrative Order 213-5, Audit Resolution and                                           Decisions                                       0                          16
Follow-up, provides procedures for management to request a modi-
fication to an approved audit action plan or for a financial assis-                                   Actions pending
tance recipient to appeal an audit resolution determination. The                                      (March 31, 2004)                                0                           9
following table summarizes modification and appeal activity dur-
ing the reporting period.



March 2004/Semiannual Report to Congress                                                                                                                                                45
Office of Inspector General




TABLE 2. AUDIT AND INSPECTION                                                 audit, such cost is not supported by adequate documentation; or
STATISTICAL HIGHLIGHTS FOR THIS                                               (3) a finding that an expenditure of funds for the intended purpose
PERIOD                                                                        is unnecessary or unreasonable.

    Questioned costs                                      $6,906,613          Unsupported cost: a cost that, at the time of the audit, is not
                                                                              supported by adequate documentation. Questioned costs include
    Value of audit recommendations that                                       unsupported costs.
    funds be put to better use                             6,603,432
                                                                              Recommendation that funds be put to better use: an OIG rec-
    Value of audit recommendations                                            ommendation that funds could be used more efficiently if Com-
    agreed to by management                                6,260,532          merce management took action to implement and complete the
                                                                              recommendation, including (1) reductions in outlays; (2)
    Value of inspection recommendations                                       deobligation of funds from programs or operations; (3) withdrawal
    that funds be put to better use                            16,088         of interest subsidy costs on loans or loan guarantees, insurance,
                                                                              or bonds; (4) costs not incurred by implementing recommended
                                                                              improvements related to Commerce, a contractor, or a grantee;
                                                                              (5) avoidance of unnecessary expenditures identified in preaward
DEFINITIONS OF TERMS USED IN THE
                                                                              reviews of contracts or grant agreements; or (6) any other savings
TABLES
                                                                              specifically identified.
Questioned cost: a cost questioned by OIG because of (1) an
                                                                              Management decision: management’s evaluation of the findings
alleged violation of a provision of a law, regulation, contract, grant,
                                                                              and recommendations included in the audit report and the issu-
cooperative agreement, or other agreement or document govern-
                                                                              ance of a final decision by management concerning its response.
ing the expenditure of funds; (2) a finding that, at the time of the



TABLE 3. AUDITS WITH QUESTIONED COSTS

    Report Category                                                                Number          Questioned Costs         Unsupported Costs


    A. Reports for which no management decision had been
       made by the beginning of the reporting period                                   19              $9,091,850                 $1,610,513

    B. Reports issued during the reporting period                                      30               6,906,613                 3,599,467

    Total reports (A+B) requiring a management decision
       during the reporting period1                                                    49              15,998,463                 5,209,980

    C. Reports for which a management decision was made
       during the reporting period2                                                    18               5,596,480                 1,604,573

       i. Value of disallowed costs                                                                     3,257,107                  817,280

       ii. Value of costs not disallowed                                                                2,364,388                  813,435

    D. Reports for which no management decision had been
       made by the end of the reporting period                                         31              10,401,983                 3,605,407

1
 Seven audit reports included in this table are also included among reports with recommendations that funds be put to better use (see table 4). However,
the dollar amounts do not overlap.

2
In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original recommendations.




46                                                                                                        March 2004/Semiannual Report to Congress
                                                                                                                              Office of Inspector General




TABLE 4. AUDITS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

    Report Category                                                                                               Number                      Value


    A. Reports for which no management decision had been made by the
       beginning of the reporting period                                                                               8                  $13,675,585

    B. Reports issued during the reporting period                                                                      8                     6,603,432

       Total reports (A+B) requiring a management decision during the reporting period1                              16                     20,279,017

    C. Reports for which a management decision was made during the reporting period2                                   6                    10,278,657

            i. Value of recommendations agreed to by management                                                                              3,003,425

            ii. Value of recommendations not agreed to by management                                                                         7,275,232

    D. Reports for which no management decision had been made by the
       end of the reporting period                                                                                   10                     10,000,360

1
Seven audit reports included in this table are also included in the reports with questioned cost (see table 3). However, the dollar amounts do not overlap.
2
In Category C, lines i and ii do not always equal the total on line C because resolution may result in values greater than the original recommendations.




APPENDIX A. REPORT TYPES THIS
PERIOD

                                            Number of Appendix
    Type                                     Reports  Number

    Performance audits                             4            A-1

    Financial assistance audits                    8            A-2

    Financial statements audits                    6            A-3

    Inspections and systems evaluations            7            A-4

    Total                                         25




March 2004/Semiannual Report to Congress                                                                                                            47
Office of Inspector General




APPENDIX A-1. PERFORMANCE AUDITS

                                                                                                         Funds to
                                                                                                        Be Put to
      Report Title                                                Report Number       Date Issued       Better Use

   Economic and Statistics Administration


  Improvements Needed in the Reporting of
  Performance Measures by the U.S. Census Bureau                 FSD-15990-4-0001       03/29/04             —

  National Institute of Standards and Technology


  NIST’s Patent License Agreement Process Needs Improvement      STD-16009-4-0001       12/18/03             —

  National Oceanic and Atmospheric Administration


  NOAA Needs to Use Appropriate Funding Instruments to Acquire
  Support Services for the Northwest Fisheries Science Center    STL-15753-4-0001       01/12/04             —

  Property Controls at the National Weather Service Radar
  Operations Center Need Improvement                             STL-15720-4-0001       03/31/04




48                                                                            March 2004/Semiannual Report to Congress
                                                                                          Office of Inspector General




APPENDIX A-2. FINANCIAL ASSISTANCE AUDITS

                                                                          Value of
                                                                          Funds to     Federal         Federal
                                                               Date      Be Put to     Amount          Amount
  Report Title                              Report Number     Issued     Better Use   Questioned     Unsupported

  Economic Development Administration


  The Government of the District of
  Columbia’s Department of Housing
  and Community Development                ATL-15984-4-0001   12/23/03   $1,772,666

  City of Houston/Midtown
  Redevelopment Authority, TX              DEN-15908-4-0001   02/27/04                 $112,990

  Pease Development Authority, NH          ATL-16544-4-0001   03/26/04    146,123

  North Central Pennsylvania
  Regional Planning & Development
  Commission                               ATL-16512-4-0001   03/31/04    409,606

  Minority Business Development Agency


  Arizona Statewide Native
  American Business Development
  Center, Operated by the National
  Center for Native American
  Enterprise Development                   STL-15885-4-0001   12/22/03                  8,579

  California Statewide Native
  American Business Development
  Center, Operated by the National
  Center for Native American
  Enterprise Development                   STL-15885-4-0003   03/11/04                  25,061

  Northwest Native American
  Business Development Center, WA,
  Operated by the National Center for
  Native American Enterprise
  Development                              STL-15885-4-0002   3/26/04                   3,337            3,337

  National Institute of Standards and Technology


  XiDEM, Inc., UT                          DEN-16157-4-0001   3/30/04                  782,763          782,763




March 2004/Semiannual Report to Congress                                                                       49
Office of Inspector General




APPENDIX A-3. FINANCIAL STATEMENTS AUDITS

  Report Title                                                        Report Number              Date Issued

  National Technical Information Service


  Financial Statements Fiscal Year 2003                              FSD-16073-4-0001              12/12/03

  Assessment of Information Technology Controls Supporting NTIS’
  Financial Management Systems FY 2003 Financial Statement Audit     FSD-16074-4-0001              12/12/03

  Office of the Secretary


  Consolidated Financial Statements Fiscal Year 2003                 FSD-16071-4-0001              12/11/03

  Assessment of Information Technology Controls Supporting DOC’s
  Financial Management Systems FY 2003 Financial Statement Audit     FSD-16072-4-0001              12/15/03

  United States Patent and Trademark Office


  Financial Statements Fiscal Year 2003                              FSD-16075-4-0001              12/01/03

  Assessment of Information Technology Controls Supporting USPTO’s
  Financial Management Systems FY 2003 Financial Statement Audit     FSD-16076-4-0001              12/12/03




50                                                                        March 2004/Semiannual Report to Congress
                                                                                                 Office of Inspector General




APPENDIX A-4. INSPECTIONS AND SYSTEM EVALUATIONS

                                                                                                  Funds to Be
                                                                                                     Put to
  Report Title                                                     Report Number   Date Issued     Better Use

  Bureau of Industry and Security


  Deemed Export Controls May Not Stop the Transfer of
  Sensitive Technology to Foreign Nationals in the U.S.              IPE-16176       3/31/04            —

  Annual Follow-Up Report on Previous Export Control
  Recommendations, as Mandated by the National Defense
  Authorization Act for Fiscal Year 2000                             IPE-16178       3/31/04            —

  International Trade Administration


  Chicago USEAC Network is Generally Operating Well
  But Needs to Improve Its Export Success Reporting                  IPE-16136       2/20/04         $16,088

  Pacific Northwest USEAC Network Generally Operates Well,
  But Export Success Reports Need More Management Scrutiny           IPE-16507       3/31/04            —

  Philadelphia USEAC Network Provides Good Service to Clients,
  but Oversight and Export Success Reporting Need to be Improved     IPE-16402       3/31/04            —

  National Oceanic and Atmospheric Administration


  NOAA Corps Has Improperly Handled Confirmation of Officer
  Appointments and Promotions                                        IPE-16138       2/27/04            —

  NMFS Observer Programs Should Improve Data Quality,
  Performance Monitoring, and Outreach Efforts                       IPE-15721       3/31/04            —




March 2004/Semiannual Report to Congress                                                                              51
Office of Inspector General




APPENDIX B. PROCESSED AUDIT REPORTS

  The Office of Inspector General reviewed and accepted 216 audit reports prepared by independent public accountants and local,
  state, and other federal auditors. The reports processed with questioned costs, recommendations that funds be put to better use, and/
  or nonfinancial recommendations are listed in Appendix B-1.

  Agency                                                                                                                                                                                        Audits


  Economic Development Administration .......................................................................................................................................... 62

  Minority Business Development Agency .......................................................................................................................................... 2

  National Institute of Standards and Technology* .......................................................................................................................... 101

  National Oceanic and Atmospheric Administration ........................................................................................................................ 20

  National Telecommunications Information Administration .............................................................................................................. 4

  Multiagency ..................................................................................................................................................................................... 18

  Agency not identified ......................................................................................................................................................................... 9

  Total ............................................................................................................................................................................................... 216

*Includes 89 ATP program-specific audits.




52                                                                                                                                             March 2004/Semiannual Report to Congress
                                                                                          Office of Inspector General




APPENDIX B 1. PROCESSED REPORTS WITH AUDIT FINDINGS

                                                                          Value of
                                                                          Funds to     Federal         Federal
                                                               Date      Be Put to     Amount          Amount
  Report Title                              Report Number     Issued     Better Use   Questioned     Unsupported

  Economic Development Administration


  Regional Development Funding
  Corporation, PA                          ATL-09999-4-1659   02/18/04

  State of Rhode Island                    ATL-09999-4-1746   03/18/04   $3,486,000

  Operation Hope, Inc., CA                 ATL-09999-4-1714   03/31/04                 $159,624

  City of Hutchinson, KS                   ATL-09999-4-1748   03/31/04                  4,860

  Alabama State Port Authority             ATL-09999-4-1802   03/31/04                 696,000

  National Institute of Standards and Technology


  Cell Based Delivery, Inc., RI            ATL-09999-3-1584   11/06/03                  6,512            6,512

  CIIMPLEX Consortium, c/o
  IBM Corporation, NY                      DEN-09999-4-1414   12/03/03                 190,874

  BlueLeaf, Inc., CA                       DEN-09999-4-1244   12/11/03                 268,086          249,855

  MTI MicroFuel Cells, Inc., NY            DEN-09999-4-1313   12/12/03                  12,478

  Merix Corporation, OR                    ATL-09999-4-1619   12/17/03    14,819       137,330

  Planar Systems, Inc., OR                 DEN-09999-4-0984   12/22/03                 336,484

  Titan Technologies, CA                   DEN-09999-4-1488   01/08/04                  41,199           37,183

  Honeywell International, Inc., MN        DEN-09999-4-1489   01/15/04                  42,353

  Asyst Technologies, Inc., CA             DEN-09999-4-1491   01/22/04                  75,587           4,934

  Maxygen, Inc., CA                        DEN-09999-4-1399   01/27/04                  31,988

  Plug Power, Inc., NY                     DEN-09999-4-1493   01/29/04                  97,114

  StrikoDynarad Corporation, MI            DEN-09999-4-1494   01/29/04                  7,721

  Asyst Technologies, Inc., CA             DEN-09999-4-1492   01/30/04    19,153        47,421           30,795

  Varian Medical System’s Ginzton
  Technology Center, CA                    ATL-09999-4-1536   03/11/04                  57,620           57,620




March 2004/Semiannual Report to Congress                                                                       53
Office of Inspector General




APPENDIX B 1. PROCESSED REPORTS WITH AUDIT FINDINGS (CONT’D.)

                                                                         Value of
                                                                         Funds to        Federal         Federal
                                                              Date      Be Put to        Amount          Amount
  Report Title                            Report Number      Issued     Better Use      Questioned     Unsupported

  National Institute of Standards and Technology (cont’d.)


  Honeywell International, Inc., MN      ATL-09999-4-1663    03/11/04                     128,912         128,912

  Michigan Economic Development
  Corporation                            ATL-09999-4-1671    03/18/04

  Real-Time Innovations., CA            DEN-09999-4-1401     03/18/04                     29,892           29,892

  Lightwave Microsystems Corp., CA      DEN-09999-4-1408     03/18/04                     209,494          15,505

  Lilliputian Systems, Inc., MA          ATL-09999-4-1820    03/25/04    240,353          119,396         119,396

  PolyFuel, Inc., CA                    DEN-09999-4-1400     03/29/04                     56,408           10,375

  Minnesota Technologies, Inc.           ATL-09999-4-1702    03/30/04    514,712         1,864,604       1,850,637

  3M Company, MN                         ATL-09999-4-1502    03/31/04                    1,080,175

  National Oceanic and Atmospheric Administration


  Cameron Parish Police Jury, LA         ATL-09999-4-1775    03/31/04                    271,751          271,751




54                                                                            March 2004/Semiannual Report to Congress
REPORTING REQUIREMENTS

The Inspector General Act of 1978, as amended, specifies reporting requirements for semiannual reports. The requirements are listed
below and indexed to the applicable pages of this report.

  Section                                        Topic                                                                                                                            Page


  4(a)(2) ......................................... Review of Legislation and Regulations ..................................................................................... 55

  5(a)(1) ......................................... Significant Problems, Abuses, and Deficiencies ................................................................... 14–41

  5(a)(2) ......................................... Significant Recommendations for Corrective Action ........................................................... 14–41

  5(a)(3) ......................................... Prior Significant Recommendations Unimplemented ............................................................... 55

  5(a)4 ............................................ Matters Referred to Prosecutive Authorities ......................................................................... 43–44

  5(a)(5) and 6(b)(2) ...................... Information or Assistance Refused ....................................................................................... 43–44

  5(a)(6) ......................................... Listing of Audit Reports ....................................................................................................... 45–54

  5(a)(7) ......................................... Summary of Significant Reports ........................................................................................... 14–41

  5(a)(8) ......................................... Audit Reports—Questioned Costs ............................................................................................. 46

  5(a)(9) ......................................... Audit Reports—Funds to Be Put to Better Use ......................................................................... 47

  5(a)(10) ....................................... Prior Audit Reports Unresolved ................................................................................................. 56

  5(a)(11) ....................................... Significant Revised Management Decisions .............................................................................. 56

  5(a)(12) ....................................... Significant Management Decisions with which OIG Disagreed ............................................... 56



4(A)(2): REVIEW OF LEGISLATION                                                                  latory initiatives affecting Commerce programs are discussed, as
AND REGULATIONS                                                                                 appropriate, in relevant sections of the report.

This section requires the inspector general of each agency to re-
view existing and proposed legislation and regulations relating to                              SECTION 5(A)(3): PRIOR SIGNIFICANT
that agency’s programs and operations. Based on this review, the                                RECOMMENDATIONS UNIMPLEMENTED
inspector general is required to make recommendations in the semi-
annual report concerning the impact of such legislation or regula-                              This section requires identification of each significant recommen-
tions on the economy and efficiency of the management of pro-                                   dation described in previous semiannual reports for which correc-
grams and operations administered or financed by the agency or                                  tive action has not been completed. Section 5(b) requires that the
on the prevention and detection of fraud and abuse in those pro-                                Secretary transmit to Congress statistical tables showing the num-
grams and operations. Comments concerning legislative and regu-                                 ber and value of audit reports for which no final action has been



March 2004/Semiannual Report to Congress                                                                                                                                            55
Office of Inspector
Reporting  Requirements
                    General




taken, plus an explanation of the reasons why recommended ac-         the desired timetable for delivering a decision on each such re-
tion has not occurred, except when the management decision was        port. There were three NIST reports more than 6 months old.
made within the preceding year.
                                                                      SECTION 5(A)(11): SIGNIFICANT REVISED
To include a list of all significant unimplemented recommenda-
                                                                      MANAGEMENT DECISIONS
tions in this report would be duplicative, costly, unwieldy, and of
limited value to Congress. Any list would have meaning only if it
                                                                      This section requires an explanation of the reasons for any sig-
explained whether adequate progress is being made to implement
                                                                      nificant revision to a management decision made during the re-
each agreed-upon corrective action. Management updates the
                                                                      porting period. Department Administrative Order 213-5, Audit
Department’s Audit Tracking System annually, most recently as
                                                                      Resolution and Follow-up, provides procedures for revising a
of July 2003. Information on the status of any audit recommenda-
                                                                      management decision. For performance audits, OIG must be con-
tions can be obtained through OIG’s Office of Audits.
                                                                      sulted and must approve in advance any modification to an audit
                                                                      action plan. For financial assistance audits, OIG must concur with
SECTIONS 5(A)(5) AND 6(B)(2):                                         any decision that would change the audit resolution proposal in
INFORMATION OR ASSISTANCE REFUSED                                     response to an appeal by the recipient. The decisions issued on
                                                                      the 16 appeals of audit-related debts were finalized with the full
These sections require a summary of each report to the Secretary      participation and concurrence of OIG.
when access, information, or assistance has been unreasonably
refused or not provided. There were no instances during this semi-
                                                                      SECTION 5(A)(12): SIGNIFICANT
annual period and no reports to the Secretary.
                                                                      MANAGEMENT DECISIONS WITH WHICH
                                                                      OIG DISAGREED
SECTION 5(A)(10): PRIOR AUDIT REPORTS
UNRESOLVED                                                            This section requires information concerning any significant man-
                                                                      agement decision with which the inspector general disagrees. De-
This section requires a summary of each audit report issued be-       partment Administrative Order 213-5 provides procedures for el-
fore the beginning of the reporting period for which no manage-       evating unresolved audit recommendations to higher levels of
ment decision has been made by the end of the reporting period        Department and OIG management, including their consideration
(including the date and title of each such report), an explanation    by an Audit Resolution Council. During this period no audit is-
of why a decision has not been made, and a statement concerning       sues were referred to the council.




56                                                                                            March 2004/Semiannual Report to Congress
ACRONYMS

ATP .......................................................................................................................................................... Advanced Technology Program

BEA ............................................................................................................................................................ Bureau of Economic Analysis

BIS ................................................................................... Bureau of Industry and Security (formerly Bureau of Export Administration)

CAMS ............................................................................................................................ Commerce Administrative Management System

CIO ..................................................................................................................................................................... chief information officer

CCL ...................................................................................................................................................................... Commerce Control List

COTR ................................................................................................................................... contracting officers’ technical representative

ECASS ................................................................................................................................... Export Control Automated Support System

EDA ............................................................................................................................................ Economic Development Administration

ESA ............................................................................................................................................ Economics and Statistics Administration

FFMIA ......................................................................................................................... Federal Financial Management Improvement Act

FISCAM ............................................................................................................................ Federal Information System Controls Manual

FISMA ............................................................................................................................. Federal Information Management Security Act

GPRA ..................................................................................................................................... Government Performance and Results Act

GWAC .................................................................................................................................................. government-wide agency contract

IG .................................................................................................................................................................................... inspector general

IT .......................................................................................................................................................................... information technology

ITA ...................................................................................................................................................... International Trade Administration

MAF ............................................................................................................................................................................. master address file

MASC ...................................................................................................................................... Mountain Administrative Support Center

MBDA ....................................................................................................................................... Minority Business Development Agency

MBOC ................................................................................................................................... Minority Business Opportunity Committee

MEP ................................................................................................................................................ Manufacturing Extension Partnership




March 2004/Semiannual Report to Congress                                                                                                                                                         57
Office of Inspector
Semiannual   ReportGeneral
                    to Congress, March 2004




NDAA ............................................................................................................................................... National Defense Authorization Act

NIST ............................................................................................................................... National Institute of Standards and Technology

NMFS .................................................................................................................................................. National Marine Fisheries Service

NOAA ........................................................................................................................ National Oceanic and Atmospheric Administration

NSF .............................................................................................................................................................. National Science Foundation

NTIA ....................................................................................................... National Telecommunications and Information Administration

NTIS ........................................................................................................................................... National Technical Information Service

NWS .................................................................................................................................................................. National Weather Service

OAM ................................................................................................................................................... Office of Acquisition Management

OGC .................................................................................................................................................................. Office of General Counsel

OI .......................................................................................................................................................................... Office of Investigations

OIG ................................................................................................................................................................. Office of Inspector General

OMB ................................................................................................................................................... Office of Management and Budget

PAR ................................................................................................................................. FY 2002 Performance & Accountability Report

POA&M ........................................................................................................................................................ plan of action and milestone

QAR ................................................................................................................................................................. quality assessment review

RLF ............................................................................................................................................................................. revolving loan fund

ROC .................................................................................................................................................................... Radar Operations Center

TIGER ................................................................................................. Topologically Integrated Geographic Encoding and Referencing

TPS ....................................................................................................................................................................... transition power source

UCAR ......................................................................................................................... University Corporation for Atmospheric Research

USEAC ......................................................................................................................................................... U.S. export assistance center

US&FCS ........................................................................................................................................ U.S. and Foreign Commercial Service

USPTO ................................................................................................................................................. U.S. Patent and Trademark Office




58                                                                                                                                        March 2004/Semiannual Report to Congress
                                                                                                                  Office of Inspector General




Types of OIG Work Products


T
        he various kinds of audits, evaluations, inspections, and investigations at our disposal enable the IG’s office to assess Commerce
        programs and operations from a range of perspectives. Thus we are able to provide program managers with reviews and recom
        mendations that are either narrowly focused or comprehensive, as needed, to aid them in ensuring the most efficient and effec-
tive use of taxpayer dollars.


AUDITS
Performance Audits address the efficiency, effectiveness, and economy of the Department’s programs, activities, and information
technology systems. They may check a unit’s compliance with laws and regulations, and evaluate its success in achieving program
objectives. They may also involve review of final contract cost claims or review of financial assistance awards by assessing an award
recipient’s compliance with laws, regulations, and award terms; the allowability and reasonableness of claimed costs; and the degree to
which projects achieved intended results.

Financial Audits determine whether (1) a reporting entity’s financial statements are presented fairly and in accordance with gener-
ally accepted accounting principles; (2) the entity has an internal control structure that provides reasonable assurance of achieving
the control objectives set forth by OMB; and (3) the entity complied with laws and regulations that could have a direct and material
effect on the financial statements, the Federal Financial Management Improvement Act, and other laws and regulations.

Attestation Engagements involve examining, reviewing, or performing agreed-upon procedures on a subject matter or an assertion
about a subject matter and reporting the results. Attestation engagements can have a broad range of financial or nonfinancial focuses,
such as an entity’s compliance with laws and regulations and management’s discussion and analysis presentations.



INSPECTIONS
Inspections are reviews of an activity, unit, or office, or a contractor or other nonfederal entity that receives funds from the Department.
They focus on an organization, not a whole program, and are often designed to give agency managers timely and useful information about
operations, including current and foreseeable problems.



EVALUATIONS
Program Evaluations are in-depth reviews of specific management issues, policies, or programs.
Systems Evaluations review system development, acquisitions, operations, and policy, focusing on computer systems and other tech-
nologies.


INVESTIGATIONS
Investigations are conducted based on alleged or suspected wrongdoing by Department employees, contractors, recipients of financial
assistance, and others responsible for handling federal resources. Investigations that expose violations of Department rules and regula-
tions or acts of fraud committed against the U.S. government can result in administrative sanctions and/or criminal or civil prosecution.




March 2004/Semiannual Report to Congress                                                                                               59
